<html>
<title> - AGENTS OF OPPORTUNITY: RESPONDING TO THE THREAT OF CHEMICAL TERRORISM</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                AGENTS OF OPPORTUNITY: RESPONDING TO THE 
                       THREAT OF CHEMICAL TERRORISM

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                        EMERGENCY PREPAREDNESS,
                      RESPONSE, AND COMMUNICATIONS

                                 OF THE
                                 
                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 19, 2015

                               __________

                           Serial No. 114-10

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                               
                        U.S. GOVERNMENT PUBLISHING OFFICE
94-581 PDF                  WASHINGTON : 2015                       
                               
                               
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2146514e614254525549444d510f424e4c0f">[email&#160;protected]</a>  
                              
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Steven M. Palazzo, Mississippi       Donald M. Payne, Jr., New Jersey
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Scott Perry, Pennsylvania            Bonnie Watson Coleman, New Jersey
Curt Clawson, Florida                Kathleen M. Rice, New York
John Katko, New York                 Norma J. Torres, California
Will Hurd, Texas
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

                   Martha McSally, Arizona, Chairman
Tom Marino, Pennsylvania             Donald M. Payne, Jr., New Jersey
Steven M. Palazzo, Mississippi       Bonnie Watson Coleman, New Jersey
Mark Walker, North Carolina          Kathleen M. Rice, New York
Barry Loudermilk, Georgia            Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Kerry A. Kinirons, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
           Moira Bergin, Minority Subcommittee Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Martha McSally, a Representative in Congress From 
  the State of Arizona, and Chairman, Subcommittee on Emergency 
  Preparedness, Response, and Communications:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Bonnie Watson Coleman, a Representative in Congress 
  From the State of New Jersey:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               Witnesses

Dr. Mark Kirk, Director, Chemical Defense Program, Office of 
  Health Affairs, U.S. Department of Homeland Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     8
Dr. Christina Catlett, Associate Director, Office of Critical 
  Event Preparedness and Response, Department of Emergency 
  Medicine, The Johns Hopkins Hospital:
  Oral Statement.................................................    13
  Prepared Statement.............................................    14
Chief G. Keith Bryant, Fire Chief, Oklahoma City Fire Department, 
  Testifying on Behalf of the International Association of Fire 
  Chiefs:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19
Mr. Armando B. Fontoura, Sherriff, Essex County, New Jersey:
  Oral Statement.................................................    22
  Prepared Statement.............................................    24


 AGENTS OF OPPORTUNITY: RESPONDING TO THE THREAT OF CHEMICAL TERRORISM

                              ----------                              


                        Thursday, March 19, 2015

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:35 a.m., in 
Room 311, Cannon House Office Building, Hon. Martha McSally 
[Chairman of the subcommittee] presiding.
    Present: Representatives McSally, Marino, Palazzo, Walker, 
Loudermilk, and Watson Coleman.
    Ms. McSally. The Subcommittee on Emergency Preparedness, 
Response, and Communications will come to order. The 
subcommittee is meeting today to receive testimony regarding 
our Nation's preparedness to respond to terrorist attacks using 
chemical agents.
    I now recognize myself for an opening statement.
    Terrorists have long had an interest in using chemical, 
biological, radiological, and nuclear agents, or CBRN, in their 
attacks. In fact, tomorrow marks the 20th anniversary of the 
sarin gas attacks on the Tokyo subway, which killed 12 and 
injured roughly 5,500 people.
    In the 113th Congress this subcommittee, led by my 
colleague, Susan Brooks, and Ranking Member Payne, spent 
considerable time examining the CBRN threat, and particularly 
the biological aspect of this threat. This morning we are going 
to build on that work and consider the threat posed using 
chemical agents in attacks.
    We find ourselves at a pivotal time in our fight against 
terrorists around the world. ISIS is better-resourced, more 
brutal, and more organized than any terrorist group to date. We 
are also seeing other al-Qaeda affiliates metastasizing around 
the globe, inspiring individuals to join through social media 
and other means, and traveling to get the training that they 
need.
    We know that, given the opportunity, terrorists will 
acquire and use military-grade chemical weapons or other 
chemical agents in their attacks. In fact, earlier this year 
CENTCOM reported that a coalition air strike killed ISIS's 
chemical weapons expert. Reports have also indicated that ISIS 
has used chlorine gas in their attacks just this year.
    Ranking Member Payne and I are Members of the Committee on 
Homeland Security's newly-established Foreign Fighter Task 
Force. We are particularly focused on the threat to the United 
States from these individuals who have traveled to Iraq and 
Syria to train and fight with ISIS and those that are inspired 
by their extremist message here at home.
    We must ensure we work to prevent any attacks on U.S. soil, 
but we also must be prepared should one occur.
    A terrorist attack using chemical is a low-probability, but 
high-consequence scenario. A chemical attack could cause mass 
casualties and significant economic losses, and in light of 
this, we must be vigilant and ensure our first responders and 
our medical personnel are ready to respond.
    In 1995 Aum Shinrikyo cult used sarin gas, a chemical nerve 
agent, to attack the subway system in Tokyo. It killed 12 
people, as I mentioned, and sent thousands to the hospital with 
some degree of injury. The same group reportedly carried out an 
attack in Matsumoto, where seven people were killed and over 
200 injured.
    More recently, attacks in Iraq in 2006 and 2007 using 
conventional explosives combined with chlorine gas illustrates 
terrorists' interest in deploying commercially-available toxic 
industrial chemicals as weapons. Earlier this week an 
individual reportedly mailed a letter to the President 
containing cyanide.
    I served numerous deployments in the Middle East and 
Afghanistan and have nearly 30 years of experience in National 
security and counterterrorism. As part of this service, I have 
received extensive training on the impact of chemical agents.
    I was sharing a little bit with you all earlier. Multiple 
exercises that we have done in the military to respond to 
chemical attacks--how we are going to don our personal 
equipment, how we are going to protect bases, how we are going 
to respond and continue to operate. So this is what our 
military does really on a daily basis as we are exercising 
around the globe, getting ready for scenarios like this.
    But today we want to see what we can do in order to protect 
the rest of our country, to make sure that we are ready to 
respond and we can operate and be able to save lives and not 
have significant negative impacts of a chemical attack here on 
the homeland. So I am very interested in this topic.
    We are joined today by a panel of distinguished witnesses 
from the medical and first responder communities.
    I am interested in your perspectives on the current threat 
to the United States of chemical terrorism; the steps that 
Federal, State, and local partners are taking to address this 
threat; and whether the Federal Government has provided 
sufficient guidance and information to State and local 
officials on how to respond to a chemical threat--chemical 
terrorist event.
    With that, I welcome our witnesses here today. I look 
forward to our discussion.
    [The statement of Chairman McSally follows:]
                  Statement of Chairman Martha McSally
                             March 19, 2015
    Terrorists have long had an interest in using chemical, biological, 
radiological, and nuclear (CBRN) agents in their attacks. In fact, 
tomorrow marks the 20th anniversary of the sarin attacks on the Tokyo 
subway, which killed 12 and injured roughly 5,500 people.
    In the 113th Congress, this subcommittee, led by my colleague Susan 
Brooks, and Ranking Member Payne, spent considerable time examining the 
CBRN threat, and particularly the biological aspect of this threat. 
This morning, we will build on that work and consider the threat posed 
by attacks using chemical agents.
    We find ourselves at a pivotal time in our fight against terrorists 
around the world. ISIS is better-resourced, more brutal, and more 
organized than any terrorist group to date. We know that, given the 
opportunity, terrorists will acquire and use military grade chemical 
weapons or other chemical agents in their attacks. In fact, earlier 
this year, CENTCOM reported that a coalition air strike killed ISIS' 
chemical weapons expert. Reports have also indicated that ISIS used 
chlorine gas in their attacks last year.
    Ranking Member Payne and I are Members of the Committee on Homeland 
Security's newly-established Foreign Fighter Task Force. We are 
particularly focused on the threat to the United States from 
individuals who have traveled to Iraq and Syria to train and fight with 
ISIS and those inspired by their extremist message here at home. We 
must ensure we work to prevent any attacks on U.S. soil, but we must 
also be prepared should one occur.
    A terrorist attack using chemical agents is a low-probability, 
high-consequence scenario. A chemical attack could cause mass 
casualties and significant economic losses. In light of this, we must 
be vigilant and ensure our first responders and medical personnel are 
ready to respond.
    In 1995, the Aum Shinrikyo cult used sarin, a chemical nerve agent, 
to attack the subway system in Tokyo. The attack killed 12 people and 
sent thousands to the hospital with some degree of injury. The same 
group reportedly carried out an attack in Matsumoto where 7 people were 
killed and over 200 injured. More recently, attacks in Iraq in 2006 and 
2007 using conventional explosives combined with chlorine gas 
illustrates terrorists' interest in deploying commercially-available 
toxic industrial chemicals as weapons. And earlier this week, an 
individual reportedly mailed a letter to the President containing 
cyanide.
    I served numerous deployments in the Middle East and Afghanistan 
and have nearly 30 years of experience in National security and 
counterterrorism. As part of this service, I have received extensive 
training on the impact of chemical agents. I am very interested in how 
prepared we are here at home for a chemical terrorist attack.
    We are joined today by a panel of distinguished witnesses from the 
medical and first responder communities. I am interested in their 
perspective on the current threat to the United States of chemical 
terrorism, the steps Federal, State, and local partners are taking to 
address this threat, and whether the Federal Government has provided 
sufficient guidance and information to State and local officials on how 
to respond to a chemical terrorism event.
    With that, I welcome our witnesses here today. I look forward to 
our discussion.

    Ms. McSally. The Chairman now recognizes the gentlelady 
from New Jersey, Mrs. Watson Coleman, for any opening 
statement.
    Mrs. Watson Coleman. Thank you very much.
    Good morning. On behalf of Mr. Payne, Jr., who could not be 
here today, I want to welcome Ms. McSally to the Emergency 
Preparedness, Response, and Communications Subcommittee and 
wish her well as our new Chairman.
    I also would like to thank the witnesses for being here 
today, especially Sheriff Fontoura, who is from the great State 
of New Jersey, Essex County in particular.
    Good to see you, Sheriff.
    My home State of New Jersey is home of a stretch of highway 
that the New York Times has coined the most dangerous 2 miles 
in America. Interspersed between homes and commuter corridors 
there are 100 potential terrorist targets including a chlorine 
plant that, if compromised, would injure up to 12 million 
people.
    The threat of chemical attack is not new. Twenty years ago 
terrorists in Japan released sarin gas on Tokyo subway system, 
as the Chairman noted. Over 5,000 were injured, many of whom 
were first responders and health care workers who experienced 
secondary exposure because appropriate response protocols did 
not exist.
    Within 5 years of the Tokyo attack, our law enforcement 
thwarted two significant plots--one by a Ku Klux Klan affiliate 
against a natural gas facility and the other by a right-wing 
extremist organization against a bulk propane storage facility.
    Although I understand that the risk of a catastrophic 
chemical attack is relatively low, terrorist organizations have 
demonstrated an interest in acquiring chemical weapons. Just 
last weekend Kurdish authorities in Iraq alleged that ISIL has 
used chemical weapons on two separate occasions just this 
winter, and we already know that there is a risk that chemical 
facilities will be targeted.
    While I want to be careful not to sound alarmist, the 
consequences of a chemical incident on our communities and the 
people who live and work in them are too significant for us to 
ignore the threat. Terrorism aside, the explosion at the West, 
Texas chemical facility in April 2013 was a grave reminder of 
the potential lethality of chemical explosions.
    Regardless of whether an explosion is the result of 
terrorism or an accident, the same first responders are called 
into action and the safety of the same people is jeopardized.
    We have to make sure our communities and our first 
responders are informed of the risk and prepared to respond.
    With that said, I look forward to learning more about the 
Baltimore demonstration project, how gaps in capabilities and 
operating procedures were identified, and how they are being 
resolved. I am also interested to know the extent to which 
other cities have been able to use the lessons learned through 
the demonstration project to inform their own chemical incident 
response planning.
    From our emergency responders, I will be interested to 
learn whether you have adequate information related to the risk 
of potential chemical incidents in your community, whether 
through fusion centers and JTTFs or from direct relationships 
with chemical facilities. I am also interested to know about 
the availability of training opportunities and if your 
organizations have the resources to send responders to them.
    Once again, on behalf of Mr. Payne, Jr., I thank Chairman 
McSally for holding the subcommittee's first hearing on such an 
important matter and I think all-too-often overlooked topic, 
and I look forward to the witnesses' testimony.
    With that, I yield back the balance of my time.
    [The statement of Mrs. Watson Coleman follows:]
              Statement of Honorable Bonnie Watson Coleman
                            March, 19, 2015
    On behalf of Mr. Payne, Jr., who could not be here today, I want to 
welcome Ms. McSally to the Emergency Preparedness, Response, and 
Communications Subcommittee and wish her well as the new Chairman.
    I also would like to thank the witnesses for being here today, 
especially Sheriff Fontoura who traveled from New Jersey to testify 
before us today. My home State of New Jersey, is home of a stretch of 
highway that the New York Times has coined ``the most dangerous 2 miles 
in America.''
    Interspersed between homes and commuter corridors, there are 100 
potential terrorist targets--including a chlorine plant that, if 
comprised, could injure up to 12 million people.
    The threat of chemical attacks is not new. Twenty years ago, 
terrorists in Japan released Sarin gas on Tokyo subway system. Over 
5,000 were injured, many of whom were first responders and health care 
workers who experienced secondary exposure because appropriate response 
protocols did not exist.
    Within 5 years of the Tokyo attack, our law enforcement thwarted 
two significant plots: One by a Ku Klux Klan-affiliate against a 
natural gas facility and the other by a right-wing extremist 
organization against a bulk propane storage facility.
    Although I understand that the risk of a catastrophic chemical 
attack is relatively low, terrorist organizations have demonstrated an 
interest in acquiring chemical weapons. Just last weekend, Kurdish 
authorities in Iraq alleged that ISIL has used chemical weapons on two 
separate occasions this winter.
    And we already know that there is the risk that chemical facilities 
will be targeted. While I want to be careful not to sound alarmist, the 
consequences of a chemical incident on our communities, and the people 
who live and work in them, are too significant for us to ignore the 
threat.
    Terrorism aside, the explosion at the West, Texas chemical facility 
in April 2013 was a grave reminder of the potential lethality of 
chemical explosions. Regardless of whether an explosion is the result 
of terrorism or an accident, the same first responders are called to 
action and the safety of the same people is jeopardized.
    We have to make sure our communities and our first responders are 
informed of the risks and prepared to respond. With that said, I look 
forward to learning more about the Baltimore Demonstration Project, how 
gaps in capabilities and operating procedures were identified, and how 
they are being resolved. I am also interested to know the extent to 
which other cities have been able to use the lessons learned from the 
Baltimore Demonstration Project to inform their own chemical incident 
response planning.
    From our emergency responders, I will be interested to learn 
whether you have adequate information related to the risk of potential 
chemical incidents in your community, whether through fusion centers 
and JTTFs or from direct relationships with chemical facilities. I am 
also interested to know about the availability of training 
opportunities and if your organizations have the resources to send 
responders to them.
    Once again, on behalf of Mr. Payne, Jr., I thank Chairman McSally 
for holding the subcommittee's first hearing on such an important--and 
I think all-too-often overlooked--topic, and I look forward to the 
witnesses' testimony.

    Ms. McSally. Thank you, Mrs. Watson Coleman. I appreciate 
it.
    Other Members of the subcommittee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             March 19, 2015
    By holding this hearing in the Subcommittee on Emergency 
Preparedness, Response, and Communications, the committee is sending a 
strong message to the American public that chemical security is a 
shared responsibility. When a chemical incident occurs, our emergency 
responders are called to the site. Rarely do these brave men and women 
have the benefit of full information or know whether an incident is the 
result of terrorism or an accident.
    One of the most notorious attacks on a mass transit system occurred 
nearly 20 years ago. On March 20, 1995, terrorists carried out a 
coordinated series of sarin gas attacks in the Tokyo subway system, 
killing 12 and sickening over 5,000. That day, emergency responders 
were notified within 15 minutes, police blocked access to the subway 
system within 1 hour, and authorities identified sarin as the chemical 
agent within 3 hours. But first responders and health care workers did 
not have appropriate personal protective equipment. No primary 
decontamination was conducted at the site. As a result, 135 
firefighters and 23% of hospital staff at the hospital receiving the 
initial victims experienced secondary exposure.
    In the wake of these attacks, we asked ourselves how we could make 
sure emergency responders had the equipment and response protocols in 
place to respond to a Tokyo-style event safely and contain the damage. 
Twenty years later, those same questions are being asked, although the 
September 11, 2001 terrorist attacks certainly added a sense of 
urgency.
    I look forward to hearing testimony on emergency preparedness and 
response capabilities to chemical incidents regardless of their 
origins, and learning more about the Baltimore Demonstration Project. I 
should note that today's hearing is a continuation of this committee's 
efforts to address this threat.
    Back in 2006, a series of deadly chlorine bomb attacks in Iraq 
intensified interest in bolstering chemical security here in the United 
States. One aspect of addressing the chemical threat is determining how 
best to fortify chemical plants to ensure that they are not attacked 
and that stored chemicals are not stolen for terrorist purposes.
    In response to a series of Classified briefings and conversations 
with then-DHS Secretary Michael Chertoff, I co-authored legislation to, 
for the first time, require chemical facilities to conduct 
vulnerability assessments and have security plans in place to address 
their vulnerabilities. That program, known as the Chemical Facility 
Anti-Terrorism Standards program, or ``CFATS,'' includes a provision 
that encourages information sharing with State and local emergency 
responders.
    Given the diverse ways that chemicals behave, it is critical that 
those who race to the site of a fire or explosion at a chemical plant, 
as occurred earlier this week in Milwaukee and 2 years ago in West, 
Texas, know what chemicals are stored at the facility so that they can 
take the necessary precautions. Ensuring that businesses are good 
neighbors who share chemical security responsibility is important.

    Ms. McSally. We are pleased to have a very distinguished 
panel before us today on this important topic.
    Dr. Mark Kirk directs the Chemical Defense Program at the 
Department of Homeland Security's Office of Health Affairs. He 
is an emergency physician and medical toxicologist with 
extensive field experience in pre-hospital medicine, emergency 
medicine, critical care toxicology, and large-scale hazardous 
materials and chemical terrorist incident response.
    Dr. Christina Catlett is an assistant professor of 
emergency medicine at the Johns Hopkins Hospital in Baltimore, 
Maryland. In 2001, Dr. Catlett became the associate director of 
the Johns Hopkins Office of Critical Event Preparedness and 
Response, created in the wake of September 11 terrorist 
attacks.
    In this capacity, she has coordinated disaster planning--
including for terrorist attacks, hazmat events, contagious 
disease outbreaks, and mass casualty events and response within 
the Hopkins health system, and integrated those activities with 
Federal, State, and local plans. Dr. Catlett serves as director 
of the Johns Hopkins Go Team, Hopkins' deployable disaster 
medical team, and is a member of the Maryland's Disaster 
Medical Assistant Team.
    Chief Keith Bryant serves as the chief of the Oklahoma City 
Fire Department, a position he has held since 2005. During his 
30 years at Oklahoma City Fire Department, Chief Bryant has 
served as an EMT, hazmat technician, dive team member--there is 
not much diving in Oklahoma, is there--and a certified fire 
service instructor. He began his fire service career as a 
firefighter in the United States Army in 1977.
    Thanks for your service in the Army and your continued 
service now.
    Chief Bryant currently serves as the president of the 
International Association of Fire Chiefs, and he is testifying 
in that capacity today.
    Sheriff Armando Fontoura serves as the sheriff of Essex 
County, New Jersey, a position he has held since 1991, but 
prior to that, many years in the police department, as well, so 
lots of years of service in law enforcement. He is the longest-
tenured sheriff in Essex County history. Sheriff Fontoura also 
serves as the county coordinator for the Essex County Office of 
Emergency Management.
    He began his law enforcement career with the Newark Police 
Department in 1967. He is the past president of the Police 
Management Association and an active member of the 
International Association of Chiefs of Police and National 
Sheriffs' Association.
    Welcome.
    The witnesses' full written statements will appear in the 
record.
    The Chairman now recognizes Dr. Kirk for 5 minutes.

  STATEMENT OF MARK KIRK, DIRECTOR, CHEMICAL DEFENSE PROGRAM, 
 OFFICE OF HEALTH AFFAIRS, U.S. DEPARTMENT OF HOMELAND SECURITY

    Dr. Kirk. Chairman McSally, Representative Watson Coleman, 
and distinguished Members of the subcommittee, I would like to 
thank you for allowing me to speak on this important topic. I 
really appreciate the opportunity to talk about an issue of 
chemical threats to our Nation.
    It has been my honor to run the Chemical Defense Program at 
the Department of Homeland Security for 6 years. More 
importantly is I am so grateful for the opportunities I have 
had to be in the preparedness and response roles.
    I have been an EMT and now a practicing emergency physician 
medical toxicologist. These experiences have given me quite a 
broad experience and understanding of how community 
preparedness works, and it also has given me a strong 
commitment to help those that respond to these types of events.
    This year is an important anniversary for several tragic, 
large-scale chemical incidents. We have already heard about the 
Tokyo sarin attack, but it is also 30 years ago in December was 
the Bhopal, India toxic industrial chemical release; and 10 
years ago in March was the chlorine gas release from the 
Graniteville, South Carolina train derailment. All of these 
communities and the victims who suffered from this still suffer 
in ways today.
    Chemical warfare agents have been designed and stockpiled 
for battlefield use. However, the threat is not just from 
chemical warfare agents, but also from toxic industrial 
chemicals. These important chemicals are often referred to as 
agents of opportunity, and mostly they are referred to this 
because of their easy or potentially easy access through theft, 
diversion, or purchase.
    I would like to refer your attention to the diagram that is 
being illustrated on the screens. This illustrates the events 
as they unfolded in the Tokyo sarin attack in 1995, and what it 
illustrates mostly are the predictable challenges of a chemical 
incident.
    A couple of points to make. First, chemical incidents often 
occur abruptly, with many victims falling ill at once.
    In this particular incident, 500 people showed up at the 
closest hospital within the first hour. In addition, sarin 
gas--sarin was not identified for at least 2\1/2\ hours after 
the release, and there was a delay in reporting this to 
responders in hospitals.
    A predictable challenge during the early stages of any 
chemical incident is that medical personnel and first 
responders find themselves operating in the blind, having to 
react immediately to the threat before they have complete 
information available to them. The first hours are often the 
window of opportunity for us to make the best decisions about 
protection and also for treatment.
    I would like to also point out that if you look in the 
lower right corner you can see that it took almost 5 hours 
before resources and specialized teams were able to arrive, and 
communities must stabilize these incidents on their own before 
specialized resources and Federal assets can mobilize.
    The Office of Health Affairs' Chemical Defense Program 
provides a unique medical and technical expertise to DHS and 
the Federal agencies. The Federal Government does play an 
important role, including the Office of Health Affairs, in 
supporting State and local preparedness so communities are 
equipped to respond to the early minutes of these types of 
incidents.
    One of the primary ways the Office of Health Affairs 
currently supports State and local communities is through our 
demonstration projects. The first multi-year pilot 
demonstration project was completed in the city of Baltimore at 
the Johns Hopkins Hospital's metro station in 2014.
    The Maryland Transit Administration led the effort with the 
support of OHA, and during the Baltimore project we developed a 
structured approach to systematically examine the entire 
emergency response system in a large-scale incident and in an 
accidental release. We have extended this chemical defense 
demonstration project to four additional cities: Houston, 
Texas; Boise, Idaho; New Orleans, Louisiana; and Nassau County, 
New York.
    We intend to look at at-risk venues in those areas, and we 
need to specifically focus on improving rapid recognition, 
information flow, enhancing the decision making, and aligning 
resources so that we can optimize the communities' response.
    At the completion of these demonstration projects we would 
like to identify specific solutions that can address the 
greatest challenges, the limitations, and the gaps in the 
community. Most important in our direction moving forward is 
translating our findings into implementation and action plans, 
and we intend to share our collection of guidance, best 
practices, and newly-developed decision aids with all 
communities. We plan to partner with other agencies and 
relevant organizations to share our findings to get the word 
out.
    My team and I will continue to work with our colleagues at 
DHS, other agencies, and the academic community to identify 
gaps and bring together the right expertise to address them in 
a meaningful way. We will continue to act as a resource to the 
Federal, State, and local groups working on chemical defense.
    I thank you for your time and interest in this important 
issue, and I look forward to answering your questions.
    [The prepared statement of Dr. Kirk follows:]
                    Prepared Statement of Mark Kirk
                             March 19, 2015
    Chairman McSally, Ranking Member Payne, and distinguished Members 
of the subcommittee, thank you for inviting me to speak with you today. 
I appreciate the opportunity to testify on the important issue of 
chemical threats to our Nation. The Department of Homeland Security 
(DHS) Office of Health Affairs' (OHA) Chemical Defense Program works 
across the Department, with our Federal partners, and with State and 
local communities to ensure we are prepared for any future threats. I 
have been honored to run this program for 6 years, and have worked as 
an emergency physician and medical toxicologist for more than 25 years. 
My past experiences in the area of chemical response include working as 
an emergency medical technician and volunteer firefighter, emergency 
physician, critical care medical toxicologist, fire department medical 
advisor, and community emergency response planner. These experiences 
give me a broad understanding of community preparedness and a strong 
commitment to help those who respond to chemical emergencies.
                          nature of the threat
    This is an important time to focus on chemical defense, as it marks 
an anniversary of a tragic, large-scale chemical incident. Twenty years 
ago tomorrow, on March 20, 1995, terrorists attacked the Tokyo, Japan 
subway by intentionally releasing sarin, a chemical warfare agent. 
Twelve people were killed and thousands were injured. Just over 30 
years ago in December 1984, a large release of a toxic, industrial 
chemical killed thousands in Bhopal, India. Finally, 10 years ago in 
January 2005, a freight train derailed in the middle of the night, 
releasing a large cloud of chlorine gas into the Graniteville, South 
Carolina community. Nine people died, hundreds were injured and 
thousands had to be evacuated from the surrounding area.
    Poisoning has been used as a weapon for centuries. Battlefield use 
of chemical warfare agents prominently appeared in World War I, and in 
the decades following, chemicals were designed and stockpiled solely 
for use on the battlefield. Although the United States and many 
countries around the world have since banned chemical weapons and 
committed to controlling their precursors, these materials continue to 
be a threat today. Evidence shows sarin has been used in Syria, and the 
toxic, industrial chemical chlorine allegedly has been used in multiple 
attacks in Iraq and Syria since 2007. Recipes, dispersion methods and 
``how-to'' manuals for chemical weapons can be found on the internet. 
Readily-accessible chemicals are used in the United States by those 
committing ``chemical suicide,'' and recently chlorine was deliberately 
released in a Rosemont, Illinois hotel affecting a group attending a 
convention.
    The threat is not just from chemical warfare agents, but also from 
toxic industrial chemicals (TICs). These chemicals are often referred 
to as ``Agents of Opportunity.'' Some of these chemicals, such as 
cyanide and phosgene, are recognized chemical warfare agents but have 
important industrial uses. Even some household chemicals can be 
potential weapons. TICs are a risk because they do not require the 
necessary technical expertise that a chemical warfare agent would 
require to synthesize. In fact, they are readily available and can be 
accessed, often in large quantities. The DHS Chemical Facility Anti-
Terrorism Standards (CFATS) program within the National Protection and 
Programs Directorate (NPPD) along with a variety of voluntary outreach 
programs are just some of the ways that DHS works with its partners in 
the chemical industry to reduce risk.
    Chemical agents can be used to kill, incapacitate large numbers of 
people, cause permanent or long-lasting harm, contaminate critical 
infrastructure and create uncertainty, fear, and panic. Even small-
scale attacks can have a large and lasting impact. For example, the 
Tokyo sarin subway attack could be considered a small-scale attack. The 
attackers targeted confined, crowded subway cars for the release. 
Twelve people died, about 1,200 people showed signs of poisoning and 
5,500 sought medical care. Additionally, almost 250 first responders 
and hospital staff developed adverse effects from secondary exposure to 
the victims from the scene. Currently, Tokyo scientists are studying 
the persistent long-term neurological effects in some victims, and the 
Chemical Defense Program is supporting the National Institutes of 
Health in further study of this issue.
        how chemical incidents are different from other threats
    Chemicals cause predictable toxic effects based on the dose, and 
there are typical actions that can be taken to limit exposure time and 
decrease concentration as rapidly as possible. For example, moving 
rapidly away from a vapor cloud or sheltering in place can help 
decrease concentration and duration of exposure. Similarly, using large 
amounts of water on your skin after being splashed with a concentrated 
acid will decrease the chemical's harmful effects. It is important to 
note that chemicals do not have incubation periods and the harmful 
effects are not contagious, although for certain agents, contamination 
on patients' clothing can cause others to become affected. Further, a 
dose of chemicals is not always lethal--not everyone exposed to a 
chemical will die. However, those exposed may be affected, potentially 
seriously, and require treatment attention or suffer long-term 
deleterious effects.
    Chemical incidents have recurring patterns with predictable 
challenges, and thus a response can be planned. Each incident is unique 
and chemical terrorism attacks can cause chaos, confusion, and seeming 
unpredictability. While it is impossible to be prepared for every 
challenge that may arise during the response, past events have shown us 
that there are common themes that can be incorporated into emergency 
response planning.
    Although we can plan for chemical threats, an important and 
dangerous element is time. Chemical incidents often occur abruptly, 
with many victims falling ill at once. Protective movements and life-
saving treatments--and the key decisions that facilitate these 
actions--must occur very quickly to make a difference. This rapid 
response requirement necessitates that communities stabilize incidents 
on their own, often before specialized resources and Federal assets can 
mobilize.
    During the early stages of many chemical events, medical personnel 
and first responders may find themselves operating ``in the blind,'' 
having to react immediately to a threat before complete information is 
available. During this stage, sifting through reports to find the 
difference between accurate and misleading accounts can be difficult, 
and key information about the alleged chemical may not yet be known. 
Responders can suffer injury if they fail to use adequate personal 
protection for the threat they face. Fear from the public and 
inaccurate information can overwhelm health systems, and make it 
difficult to determine the real scale of an incident. Further, 
specialized groups of experts who are not necessarily part of a typical 
response plan for other hazards, such as medical toxicologists, poison 
centers, chemists, and hazardous materials specialists, need to be 
mobilized to address the incident.
    Without accurate information, coordination, and guidance, 
responders are left to improvise, and critical resources may be 
misdirected, wasted, or even incapacitated. Information sharing and 
coordination in this early phase are so critical and can be difficult 
to realize without expert decision-making skills and planning 
resources. The Federal Government, including the OHA Chemical Defense 
Program plays an important role in supporting State and local 
preparedness for chemical incidents, so that communities are equipped 
to respond quickly and appropriately during those first critical 
minutes. A time line has been submitted with this testimony 
illustrating the events as they unfolded during the response to the 
1995 Tokyo sarin subway attack, and demonstrates many of these 
challenges.
                    dhs chemical defense activities
    OHA's Chemical Defense Program seeks to build preparedness for 
chemical terrorism and accidents at the Federal, State, and local 
levels with the ultimate goal of protecting the health and safety of 
the American people. It is a comprehensive program to address Federal, 
State, and local risk awareness, planning, and response mechanisms in 
the event of a chemical incident. OHA provides subject-matter expertise 
on medical toxicology and responder workforce protection related to 
chemical threats. Most importantly, the program works directly with 
communities to help integrate threat-based risk assessments and 
response capabilities, and help communities understand their strengths, 
limitations, and needs.
    Several components and offices within DHS are involved in different 
elements of chemical defense. For example, the NPPD runs the Chemical 
Facility Anti-Terrorism Standards program. This program identifies and 
regulates high-risk chemical facilities to ensure they have measures in 
place to reduce the security risks associated with these chemicals. 
NPPD also performs outreach and collaborates with its Federal partners 
and the chemical industry to reduce risk. The Federal Emergency 
Management Agency (FEMA) runs the Center for Domestic Preparedness, 
which develops and delivers training to State, local, and Tribal 
emergency response providers on all hazards, to include chemical 
threats. FEMA also addresses chemical incidents in its training grants 
program, Fire Academy, and as part of its response planning efforts. 
The DHS Science and Technology Directorate's (S&T) Chemical Security 
Analysis Center (CSAC) identifies and assesses chemical threats and 
vulnerabilities. Other Federal agencies also take an active role in 
chemical defense, and NPPD, the Environmental Protection Agency, and 
the Occupational Safety and Health Administration work to ensure the 
safety of chemical facilities per Executive Order 13650: Improving 
Chemical Facility Safety and Security. OHA's Chemical Defense Program 
works with all of these entities to coordinate and share information.
    Our office's medical and technical expertise is a resource for DHS 
and other Federal agencies. It works closely with several DHS 
components such as FEMA, U.S. Customs and Border Protection (CBP), 
NPPD, U.S. Secret Service, Office of Intelligence and Analysis, and S&T 
to develop and implement chemical defense policies and plans, and 
provide technical advice. For example, the Chemical Defense Program has 
assisted in the development of medical management guidelines for 
treating those smuggling drugs concealed inside of their bodies and 
workforce protection protocols for exposure to potentially harmful 
chemicals for CBP, and provided support to FEMA's Center for Domestic 
Preparedness, National Fire Academy, and training grants programs. The 
program has also provided technical expertise to the DHS CSAC's 
Chemical Terrorism Risk Assessment.
    In addition, OHA assists communities with their chemical defense 
preparedness efforts, works closely with National associations to 
enhance information sharing and provide technical support to 
communities, and coordinates with its Federal counterparts. We support 
interagency working groups to develop response tools like 
specifications for autonomous stationary chemical detectors and 
guidance for first responders. Recently, we worked with the Department 
of Health and Human Services Office of the Assistant Secretary for 
Preparedness and Response to develop guidance on Patient 
Decontamination in a Mass Chemical Exposure Incident. The guidance, 
written in coordination with the interagency, compiles evidence-based 
information that focuses on providing options for responses to events 
like chemical release and mass casualties. Designed to be flexible and 
scalable to a community's resources and capabilities, the 
recommendations can be adapted to each unique community according to 
hazard and risk assessments. Our office is also assisting the National 
Library of Medicine on the development of the Chemical Hazards 
Emergency Medical Management resource as part of their on-line 
resources for first responders.
    Because of the rapid onset of chemical incidents, the Chemical 
Defense Program focuses on assisting interagency partners and DHS 
components in preparing first responders, first receivers, and 
emergency managers for these situations.
                chemical defense demonstration projects
    One of the primary ways the OHA Chemical Defense Program currently 
supports State and local communities is through its demonstration 
projects. These programs help communities define best practices that 
will better prepare them for responding to high-consequence chemical 
events. The first multi-year pilot demonstration project was completed 
in the city of Baltimore in 2014, with the Maryland Transit 
Administration leading the effort with support from the OHA Chemical 
Defense Program. During the pilot, OHA developed a structured approach 
to systematically examine the entire emergency response system in a 
large-scale chemical accident or intentional release. This process was 
applied to the Maryland Transit Administration's Johns Hopkins Metro 
Station to develop tailored risk assessment methodologies, provide 
workshops for stakeholders and vendors, conduct technology assessments, 
complete a detailed cognitive task analysis that analyzed decision 
making in chaotic situations, develop a comprehensive concept of 
operations, and facilitate a community-wide scenario-based table-top 
exercise. These findings were used by the Maryland Transit 
Administration and the local emergency response community to improve 
their chemical emergency preparedness, planning, and technologies 
designed to protect the public from chemical incidents.
    OHA has extended demonstration projects to four other cities that 
will test similar capabilities: Houston, TX; Boise, ID; New Orleans, 
LA, and Nassau County, NY. These four cities were chosen through a 
competitive selection process evaluating their chemical threat risk 
(city and venue) and community interest and goals to improve chemical 
incident preparedness. The additional projects are intended to 
systematically study multiple types of ``at-risk'' venues in several 
cities with a variety of capabilities and resources.
    Each community we visit benefits from our work. The demonstration 
projects focus mostly on improving information flow, enhancing decision 
making, and aligning resources to optimize the emergency response 
system. The demonstration projects are designed to treat each 
community's response as a unique, holistic, and complex system, and to 
boost information flow and decision-making expertise. At the completion 
of all the demonstration projects, we will have examined in detail 
where the leverage points within the emergency response system exist 
and identify where specific solutions can address the greatest 
challenges, limitations, and gaps each community faces. Our analysis is 
intended to lead to the delivery of a set of preparedness tools, shared 
best practices, and guidance for comprehensive community preparedness 
to a large-scale chemical incident.
                              path forward
    DHS and the Federal Government have contributed to strengthening 
our Nation's chemical defense capabilities, and have provided support 
for community-level capacity building. The Chemical Defense 
Demonstration Projects are already improving our understanding of the 
immediate response, at the community level, following a large-scale 
chemical incident, and will help us to identify leverage points within 
the complex emergency response system. This information will help the 
Chemical Defense Program, in collaboration with communities and Federal 
experts, to facilitate the building of tools to intervene at critical 
points and optimize the emergency response system when responding to 
chemical incidents.
    The most important direction moving forward is translating our 
findings into implementation plans and actionable steps. We intend to 
share our collection of guidance, best practices, and newly-developed 
decision-aids with all communities. We plan to partner with other 
agencies and relevant organizations to share our findings so that we 
can assist in the creation of training and education methods that will 
help decision makers at all levels operate within a structured 
environment even during the chaotic first moments of a chemical 
incident, and optimize key information sharing in order to make sound 
critical decisions.
    Supporting community response in the critical first few hours of an 
incident is very important, and the OHA Chemical Defense Program will 
continue to build best practices and tools for communities to help them 
make the critical decisions, allocate their resources, and conduct 
effective planning. However, there is still important work to do on 
planning and preparation for an end-to-end approach that takes into 
account a full chemical threat short- and long-term effects. This 
essential work is taking place at DHS and across the Federal Government 
and must continue until the approach is fully developed.
    The chemical defense system spans all relevant components at 
Federal level. It also connects the local response to the Federal 
Interagency. Coordination across both of these groups is important, and 
DHS sits in a unique position to facilitate coordination. The OHA 
Chemical Defense Program continually looks for opportunities to amplify 
coordination and collaboration across Government and make full use of 
all available resources for Federal and community response efforts. I 
and my team will continue to work with our colleagues in DHS, other 
agencies, and the academic community to identify gaps and bring 
together the right expertise to address them in a meaningful way. We 
will also continue to act as a resource to Federal, State, and local 
groups working on chemical defense.
    I thank you for your time and interest in this important issue, and 
look forward to answering your questions.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


    Ms. McSally. Thank you, Dr. Kirk.
    The Chairman now recognizes Dr. Catlett for 5 minutes.

 STATEMENT OF CHRISTINA CATLETT, ASSOCIATE DIRECTOR, OFFICE OF 
    CRITICAL EVENT PREPAREDNESS AND RESPONSE, DEPARTMENT OF 
         EMERGENCY MEDICINE, THE JOHNS HOPKINS HOSPITAL

    Dr. Catlett. Good morning, Chairman McSally, Representative 
Watson Coleman, and distinguished Members of the subcommittee. 
Thank you for the opportunity to appear before you today.
    I am the associate director of the Johns Hopkins Office of 
Critical Event Preparedness Response in Baltimore. I have been 
an emergency physician for 20 years and an expert in disaster 
medicine and health care system emergency preparedness for 16 
years.
    Johns Hopkins Hospital began planning for a potential 
chemical event in 1999, when we drafted our first chemical 
response plan. Our rudimentary decontamination capability at 
that point was comprised of basic PPE, a baby pool, and a 
garden hose.
    September 11 dramatically changed health care's perception 
about our vulnerability to a terrorist attack and spurred a 
paradigm shift in preparedness activities. Initial Hospital 
Preparedness Program, HPP, funding allowed us to obtain the 
critical elements of response: Decontamination capability, 
personal protective gear for our staff, and stockpiles of 
chemical antidotes. We began training our staff on 
decontamination procedures and vastly improved our capability 
to respond to a chemical attack.
    Since then, diminishing HPP funding, budget constraints, 
and competing priorities such as emerging infectious diseases, 
have turned our attention away from chemical preparedness and 
limited our ability to replace damaged or expired supplies, 
equipment, and antidotes. Training and education of hospital 
staff to respond to a chemical event have all but fallen off 
the radar screen.
    According to 2008 data, only 69.6 percent of hospitals had 
performed an exercise involving decontamination procedures, and 
only 55.6 percent of hospitals had participated in a mass 
casualty drill involving a chemical scenario.
    Furthermore, we are raising a new generation of health care 
providers who are naive to the threat of chemical terrorism. 
There is very little, if any, medical student or resident 
education on the topic. Even seasoned emergency physicians have 
little, if any, experience with industrial accidents or hazmat 
events, the closest approximation we have to chemical 
terrorism.
    Response to a chemical event is not intuitive. Assembly of 
the decontamination tents, correct donning and doffing of PPE, 
proper patient decontamination procedures, and familiarity with 
chemical agent symptoms and treatment are all perishable skills 
that require on-going training.
    So where do we go from here?
    First, we need to redefine the problem, which requires 
research funding. Information on the state of preparedness of 
the health care system is nearly a decade old. We need new data 
that accurately reflects the level of hospital preparedness for 
chemical events today so that we can identify gaps, develop 
those metrics for success, and redirect funding if needed.
    Second, we need to ramp up the level of training and 
education of health care providers in the response to agents of 
opportunity. Third, hospitals need to partner with the 
intelligence community to develop more informed, threat-based 
risk assessments, so that we understand where to direct our 
efforts.
    Finally, the importance of regional chemical preparedness 
initiatives, such as the Baltimore demonstration project 
described by Dr. Kirk, cannot be underestimated. In addition to 
providing us with chemical detection technology, the initiative 
has engendered collaboration, communication, and coordination 
between Johns Hopkins Hospital and our community and State 
response partners, such as the Maryland Transit Authority, 
police, fire, EMS, and hazmat teams, which significantly 
enhance our regional response capability.
    In conclusion, hospital preparedness for chemical terrorism 
has improved since 2001, but we cannot allow our achievements 
to continue to erode due to complacency.
    The time has come for hospitals to abandon our reactionary 
stance to critical events and to assume a more forward-leaning 
posture in preparing for agents of opportunity through 
implementation of thoughtful preparedness initiatives, such as 
research, education, training, and regional partnerships.
    Thank you for your time. I look forward to answering any 
questions that you have.
    [The prepared statement of Dr. Catlett follows:]
                Prepared Statement of Christina Catlett
                             March 19, 2015
    Chairman McSally, Ranking Member Payne, and distinguished Members 
of the subcommittee, thank you for the opportunity to appear before you 
today. I appreciate your interest in the state of preparedness and 
response efforts of the health care system regarding chemical 
terrorism. I am honored to testify with my distinguished colleagues Dr. 
Kirk, Chief Bryant, and Sheriff Fontoura.
    I am an emergency physician at Johns Hopkins Hospital in Baltimore 
and the associate director of the Johns Hopkins Office of Critical 
Event Preparedness and Response (CEPAR), founded in 2001 in response to 
the terrorist attacks. Our office oversees preparedness planning and 
disaster response for all of the Johns Hopkins Institutions, including 
the Johns Hopkins Health System and the University. CEPAR's other focus 
areas include policy development for the Institution (e.g. smallpox 
vaccination, scarce resource distribution during pandemic influenza, 
and Ebola response) and disaster education and training, not only for 
the Institution, but also Nationally and internationally.\1\ In 
addition, we are home to the National Center of Excellence for the 
Study of Preparedness and Catastrophic Event Response (PACER), created 
by the Department of Homeland Security (DHS). PACER's research 
portfolio includes surge capacity metrics, modeling and simulation, and 
development of decision support tools.\2\
---------------------------------------------------------------------------
    \1\ www.hopkins-cepar.org
    \2\ http://www.pacercenter.org/.
---------------------------------------------------------------------------
    I have been an emergency physician for 20 years and an expert in 
disaster medicine and health care system preparedness and response for 
nearly 16 years. I have responded in the field to disasters such as 
Hurricanes Ivan (2004), Katrina (2005), and Rita (2005), the Haiti 
earthquake (2010), and Hurricane Sandy (2012). I had the honor of 
serving on the FEMA National Advisory Council for 3 years and am the 
senior medical officer for Maryland's Federal Disaster Medical 
Assistance Team (MD-1 DMAT). My additional experience in the area of 
chemical response includes serving as a subject-matter expert on a 
number of Department of Homeland Security (DHS) and Department of 
Health and Human Services (HHS) projects pertaining to chemical, 
biological, radiological, nuclear, and explosive (CBRNE) event 
preparedness. I have authored multiple research publications on health 
care and terrorism, including the state of preparedness, the 
willingness of health care providers to respond, and training and 
education of staff. In addition, I served as a subject-matter expert in 
2004 and 2011 to Meridian Medical Technologies (originally King 
Pharmaceuticals), producers of nerve antidote auto injectors, on the 
topics of public awareness and establishment of medical training and 
readiness.
                               background
    My awareness of preparedness gaps related to the threat of chemical 
terrorism began in 1999, when I attended the Army's Domestic 
Preparedness training program. Thereafter, I became committed to 
improving my hospital's level of preparedness and making this a focus 
of my academic career. At that time, our emergency operations plan did 
not address the unique issues and needs related to a chemical event, so 
I drafted the first chemical response plan for Johns Hopkins Hospital. 
Our decontamination capability at that point was comprised of 
rudimentary personal protective equipment (PPE), a plastic baby pool 
and a garden hose.
    September 11 and the subsequent anthrax attacks dramatically 
changed the health care system's perception of our vulnerability to 
these emerging threats and spurred a paradigm shift preparedness 
activities. Over the next several years, Federal Hospital Preparedness 
Program (HPP) funding became available to hospitals, which allowed us 
to bolster our preparedness for acts of terrorism, including 
biological, chemical, and radiological events. We used initial HPP 
funding to purchase portable decontamination tents and/or install 
permanent decontamination showers, to buy appropriate PPE for our 
staff, and to stockpile antidotes. We began training our health care 
providers on implementation of the chemical response plan and the use 
of the equipment. We expected an accelerated pattern of attacks, and we 
felt more prepared. Fortunately for the United States, no further 
attacks have occured.
                     current state of preparedness
    Are hospitals currently prepared to manage and treat victims of a 
chemical attack? The question is difficult to answer. There is 
surprisingly scant information on the current state of preparedness of 
hospitals and health care systems for chemical events. In the years 
following the events of 2001, a number of reports and studies reported 
a deficit in preparedness efforts of hospitals with regards to chemical 
and biological agents;\3\ \4\ \5\ however, given the age of the data, 
it is difficult to determine its accuracy or applicability to the state 
of preparedness of the health care system today. In addition, a 
standard definition of ``preparedness'' for chemical terrorism is 
lacking, although researchers have called for the development of 
disaster preparedness and emergency management metrics.\6\
---------------------------------------------------------------------------
    \3\ GAO Report to Congressional Committees. Hospital preparedness: 
most urban hospitals have emergency plans but lack certain capacities 
for bioterrorism response. August 2003.
    \4\ Bennett RL. Chemical or biological terrorist attacks: an 
analysis of the preparedness of hospitals for managing victims affected 
by chemical or biological weapons of mass destruction. Int J Environ 
Res Public Health. 2006; 3(1): 67-75.
    \5\ Niska RW, Shimizu IM. Hospital preparedness for emergency 
response: United States, 2008. National Health Statistics Reports. Mar 
24, 2011: Number 37.
    \6\ McCarthy ML, Brewster P, Hsu EB, MacIntyre AG, Kelen GD. 
Consensus and tools needed to measure health care emergency management 
capabilities. Disaster Med Publ Health Prep. 2009: S45-S51.
---------------------------------------------------------------------------
    As the years have passed since 9/11, the health care system's 
attention to the matter of preparedness has turned to other types of 
disasters, such as emerging infectious diseases and natural disasters. 
The steady stream of funding for CBRNE preparedness given directly to 
hospitals has slowed significantly in the last 10 years. For example, 
Johns Hopkins Hospital received $352,596 in HPP funding in 2004; in 
2014, we received $35,000. HPP funding is now distributed to State 
health departments rather than to hospitals; in addition, the funding 
has become less discretionary and more directed.
    In addition to diminishing HPP funding, hospital budget constraints 
and competing priorities have limited the replacement of damaged or 
expired supplies, equipment, and antidotes. In the world of just-in-
time purchasing, items needed for relative rare events fall low on the 
priority list. Decontamination equipment and PPE is slowly degrading 
due to lack of use. Chemical cartridges and antidotes are expiring. Our 
current stockpile of chemical antidotes is minimal, and our reliance on 
the Strategic National Stockpile's Chempack has grown.
    Training of staff for chemical events has essentially fallen off 
the radar screen of hospitals. While patient care is what we do every 
day, response to a chemical event is not intuitive: Assembly of the 
decontamination tents, correct donning and doffing of PPE, proper 
patient decontamination procedures, and familiarity with chemical agent 
symptoms and treatment are perishable skills that require on-going 
training to maintain. According to 2008 data, only 69.6% of hospitals 
had performed an exercise involving decontamination procedures, and 
only 55.6% of hospitals had participated in a mass casualty drill 
involving a chemical accident or attack scenario.\7\
---------------------------------------------------------------------------
    \7\ GAO Report to Congressional Committees. Hospital preparedness: 
most urban hospitals have emergency plans but lack certain capacities 
for bioterrorism response. August 2003.
---------------------------------------------------------------------------
    Health care providers' experience with managing victims of agents 
of opportunity is extremely limited. I myself have only seen one victim 
of organophosphate exposure in 20 years of practice (which was due to a 
farming accident, not terrorism). Experience with industrial accidents 
and hazmat events are the closest approximation that first responders 
have to chemical terrorism response. However, large-scale hazmat events 
are relatively rare, and even seasoned emergency physicians have little 
if any experience in this kind of response at the hospital level.
    Given the current lack of focus on chemical response in medical 
education, we are raising a new generation of care providers who are 
naive to the threat of chemical terrorism. Our medical residents were 
in elementary school when the sarin gas attacks occurred in 1995, and 
our medical students were preschoolers. Most emergency medicine 
residents receive only 1 hour of education on CBRNE agent awareness 
training during a 2-year curriculum rotation. Medical students may 
receive only 1 hour of CBRNE information (if any) during their 4 years 
of medical school. Unless residents or medical students seek 
independent study or participate in a chemical drill at our hospital, 
it is unlikely that they will be familiar with the initial management 
of a chemical event or patient decontamination procedures when they 
enter into practice.
                             moving forward
    So where do we go from here? First, we need to redefine the 
problem, which requires research funding. We need new data that 
accurately reflects the level of hospital preparedness for chemical 
events today so that we can identify gaps and redirect HPP funding 
where it is most needed. Furthermore, we need to expand current 
research on hospital preparedness metrics \8\ and core competencies in 
disaster response \9\ to specifically address chemical preparedness and 
response. Through this information, we can establish benchmarks, which 
provide us with the objectivity needed to measure our success on the 
very question before us today.
---------------------------------------------------------------------------
    \8\ Bayram JD, Zuabi S, Subbarao I. Disaster metrics: quantitative 
benchmarking of hospital surge capacity in trauma-related multiple 
casualty events. Disaster Med Public Health Prep. 2011 June; 5(2):117-
24.
    \9\ Walsh L, Subbarao I, Gebbie K, et al. Core competencies for 
disaster medicine and public health. Disaster Med Public Health Prep. 
2012; 6:44-52.
---------------------------------------------------------------------------
    Second, on-going training and education of health care providers in 
chemical response is critical, but there are some barriers to this 
concept. At the hospital level, training equals time and money. At the 
medical education level, medical student and resident education 
curricula are already extremely rigorous, and there is little 
flexibility for addition of new topics or expansion of existing 
subjects. New training and education endeavors for health care 
providers will need to be time-efficient and cost-effective in order to 
be adopted. As an example, one available model is the CDC's new on-line 
learning experience for emergency department personnel who treat 
patients with infectious diseases entitled Ebola Preparedness: 
Emergency Department Guidelines,\10\ developed in conjunction with the 
Johns Hopkins Armstrong Institute of Patient Safety and Quality.\11\ 
The training series prepares health care workers to safely and 
efficiently identify, triage, and manage Ebola patients. In addition, 
the modules showcase important planning processes, provider-patient 
communication techniques and cross-discipline teamwork principles that 
can be used to successfully prepare for emerging infectious diseases. 
In order to incentivize hospitals to accomplish their chemical event 
education goals, completion of training programs and/or chemical-
specific disaster drills should be linked to HPP funding or Joint 
Commission emergency preparedness standards.
---------------------------------------------------------------------------
    \10\ http://www.cdc.gov/vhf/ebola/healthcare-us/emergency-services/
emergency-department-training.html.
    \11\ http://www.hopkinsmedicine.org/armstrong_institute.
---------------------------------------------------------------------------
    Third, the health care system is missing the information we need to 
understand our vulnerability to these threats. All hospitals are 
required by the Joint Commission to perform a hazard vulnerability 
analysis for their region. We have a general awareness of regional 
chemical plants or nearby railways that may be carrying hazardous 
materials. We list ``chemical attack'' as a potential threat on our 
grid, but have no further information. In order for hospitals to accept 
the concept that agents of opportunity are a relevant threat, we need 
to understand what makes it so. Hospitals should partner with the 
intelligence community in order to increase information sharing (to the 
extent possible) and to develop more informed threat-based risk 
assessments so we understand where to direct our efforts.
    Lastly, the importance of regional chemical preparedness 
initiatives, such as the Baltimore Demonstration Project described by 
Dr. Kirk, cannot be underestimated. Such projects enhance health care 
capabilities through both technology and collaboration. The new 
chemical detection equipment in the subway system under Johns Hopkins 
Hospital gives us the critical lead time that we need to respond 
effectively: To secure the entrances of our hospital to prevent loss of 
this critical infrastructure, to mobilize hazmat resources and 
decontamination equipment, to safeguard first responders and our staff 
with PPE, and to ready the life-saving treatment necessary for victims. 
More importantly, the initiative has engendered collaboration, 
communication, coordination, and relationship building with our 
community and State response partners, such as the MD Transit 
Authority, Police, Fire, EMS, and hazmat teams, which significantly 
enhance our chemical event regional response capability.
                               conclusion
    In conclusion, hospital preparedness for chemical terrorism has 
improved since 2001, but we cannot allow our achievements to erode due 
to complacency. The time has come to abandon our reactionary stance to 
critical events and assume a more forward-leaning posture in preparing 
for agents of opportunity through implementation of thoughtful 
preparedness initiatives such as research, education, and training. To 
quote General Pershing after WWI, `` . . . the effect is so deadly to 
the unprepared that we can never afford to neglect the question.''

    Ms. McSally. Thank you, Dr. Catlett.
    The Chairman now recognizes Chief Bryant for 5 minutes.

 STATEMENT OF G. KEITH BRYANT, FIRE CHIEF, OKLAHOMA CITY FIRE 
     DEPARTMENT, TESTIFYING ON BEHALF OF THE INTERNATIONAL 
                   ASSOCIATION OF FIRE CHIEFS

    Chief Bryant. Good morning, Chairman McSally, 
Representative Watson Coleman, and Members of the subcommittee.
    The International Association of Fire Chiefs represents 
more than 11,000 members of the Nation's fire, rescue, and 
emergency services, and it is on their behalf today that I 
appreciate the opportunity to discuss the threat of chemical 
terrorism, a matter of serious concern to this Nation.
    Toxic industrial chemicals are prevalent in the Nation's 
economy and transportation system. Approximately 2.2 billion 
tons of hazardous materials are transported by air, roadway, 
rail, and pipeline annually across the Nation.
    While not weaponized, these chemicals require little 
expertise or preparation to use as a weapon. We must recognize 
that extremists are looking for opportunities to use chemicals 
for nefarious purposes.
    Federal officials have warned local first responders that 
industrial chemicals could be used by violent extremists here 
at home. Both extremist social media and literature have 
included information on how to use chemicals in terrorist 
attacks.
    The initial response to a terrorist attack using chemicals 
would be similar to that of an accidental hazardous material 
release or incident. After the chemical release, fire and 
emergency medical service departments would isolate and 
establish control zones to stabilize the area. Direction would 
be given to civilians to evacuate or shelter in place to reduce 
exposure.
    The hazardous materials teams would be deployed to 
ascertain the type of chemical released and begin 
decontaminating the scene. Mass decontamination units would 
also be deployed. Patients would be decontaminated, triaged, 
stabilized, and transported to the closest appropriate 
treatment center.
    Local law enforcement would provide scene security and 
begin its investigation once the incident was confirmed to be a 
terrorist attack. During the response, the local Joint 
Terrorism Task Force and other State and local authorities 
would be alerted.
    Since the incident is a terrorist attack, emergency 
responders would have to be vigilant about secondary devices. 
The local fire and EMS department would have to work with 
Federal, State, and local law enforcement officials to preserve 
the evidence and maintain scene security.
    To prevent panic, officials would have to provide accurate 
information about what happened, what emergency steps must be 
taken, and the overall threat to the population.
    In order to ensure preparedness for a chemical terrorist 
attack, a number of steps need to be taken.
    The Federal Government must provide important threat 
information to local first responders. We need to be informed 
about any new tactics, techniques, or threats, both Nationally 
and to our specific jurisdictions, in order to prepare for 
them. The JTTF, State or local fusion center, and local law 
enforcement officials can provide this information to local 
fire and EMS departments.
    Planning and preparedness are essential for a successful 
response to a chemical terrorist attack. Fire, EMS, emergency 
management, and law enforcement officials will have to 
coordinate their operations in a dynamic environment.
    A well-coordinated incident command system will be an 
essential component. Federal, State, and local officials should 
adopt the National Incident Management System and exercise this 
cooperation before a terrorist attack occurs.
    In addition, local fire officials will have to have pre-
existing mutual aid agreements and know when to expect 
additional resources to be able to deploy. They will also have 
to know how they will stabilize the situation until help 
arrives.
    The Federal Government plays an important role in helping 
local fire and EMS departments obtain the necessary training 
and equipment. According to the National Fire Protection 
Association, approximately two-thirds of all fire departments 
that are responsible for hazardous material response have not 
formally trained all of their personnel.
    Local fire and emergency departments depend on training 
hosted by Federal partners such as the National Fire Academy, 
and Rural Domestic Preparedness Consortium, and funded by the 
Department of Homeland Security, and Pipeline and Hazardous 
Materials Safety Administration.
    Programs like the State Homeland Security Grant program, 
Urban Area Security Initiative program, and the Assistance to 
Firefighters Grant program all provide funding opportunities 
for fire and emergency departments to obtain the necessary 
resources for responding to a chemical attack.
    More importantly, Federal funding provides an incentive for 
Federal, State, and local, and private-sector officials to 
comprehensively plan for a major chemical incident and mass 
casualty event.
    The private sector has a role to play in preparing for a 
chemical attack. Chemical facilities, rails, and pipelines are 
natural targets for extremists. Railroads and pipeline owners 
should let State and local officials know what types of 
hazardous materials are being transported through their 
jurisdictions.
    Chemical facilities are required to work with local 
emergency planning committees to plan and prepared for 
incidents. Close cooperation between the private sector and 
local officials is key for preparedness for a potential 
chemical terrorist attack.
    Again, I thank you very much for the opportunity to be 
before you today, and I look forward to answering any questions 
that you may have.
    [The prepared statement of Chief Bryant follows:]
                 Prepared Statement of G. Keith Bryant
                             March 19, 2015
    Good morning, Chairman McSally, Representative Payne, and Members 
of the subcommittee. I am Keith Bryant, fire chief of the Oklahoma City 
Fire Department, and president and chairman of the board of the 
International Association of Fire Chiefs (IAFC). The IAFC represents 
more than 11,000 leaders of the Nation's fire, rescue, and emergency 
medical services. I would like to thank you for the opportunity to 
discuss emergency response issues relating to the threat of chemical 
terrorism.
            the threat of a terrorist attack using chemicals
    There is a real threat that violent extremists would like to use 
chemical weapons in terrorist attacks within the United States. Toxic 
industrial chemicals, such as chlorine, compounds containing cyanide, 
and anhydrous ammonia, are readily available and present in the 
Nation's transportation system and at chemical facilities. While it may 
not be weaponized, industrial chemicals also require little expertise 
or preparation to use. Finally, while in many cases, the casualty count 
may not be high, there would be a psychological shock to a chemical 
terrorist attack on American soil. These characteristics might make a 
chemical attack particularly appealing to a lone wolf.
    It is important to point out that industrial chemicals play an 
important role in daily life in America. For example, chlorine is used 
for water purification, and anhydrous ammonia is used in fertilizer. 
According to the U.S. Bureau of Transportation Statistics/U.S. Census 
Bureau's 2007 Commodity Flow Survey, 2.2 billion tons, corresponding to 
323 billion ton-miles of hazardous materials, are shipped by air, road, 
rail, and pipeline in the United States annually. While hazardous 
chemicals are vital to the American economy and quality of life, we 
must recognize that extremists can take advantage of weaknesses in the 
Nation's transportation system or at chemical facilities to obtain 
toxic chemicals for nefarious purposes.
    There have been recent examples of chemicals being used by violent 
extremists. Insurgents used a car bomb with numerous mortar shells and 
two 100-pound chlorine tanks in a 2006 attack in Ramadi. Recently, 
there have been reports about the Islamic State of Iraq and the Levant 
(ISIL) using roadside bombs with chlorine to try to panic Iraqi forces, 
along with pro-jihadist social media discussing the use of cyanide and 
sulfuric acid in terrorist attacks. We have seen the impact that these 
types of attacks can have on communities and know for what we need to 
prepare.
    There also is clear evidence that extremist groups overseas are 
urging adherents to use chemicals in the United States. Other tweets by 
ISIL proponents have discussed using chemical weapons in the West. In 
the past 5 years, the U.S. Department of Justice and the Federal Bureau 
of Investigation (FBI) have sent warnings to local first response 
agencies about the threat of industrial chemicals being used in a 
terrorist attack. In addition, local first responders have been warned 
to be on the lookout for precursors and designs for devices using 
industrial chemicals and chlorine gases for attacks in enclosed public 
spaces, such as restaurants and theaters. In addition, the Global 
Islamic Media Front published a document known as ``The Explosives 
Course,'' which teaches interested parties to use commercially-
available chemicals to manufacture explosives.
       the response to a terrorist attack using chemical weapons
    The initial response to a terrorist attack will be similar to a 
hazardous materials incident. Once a hazardous chemical release is 
confirmed, the fire and emergency medical services (EMS) departments 
will isolate the area and establish control zones to stabilize the area 
and minimize civilian exposure. If the type of chemical being used is 
easily identifiable, resources, such as the U.S. Department of 
Transportation's Pipeline and Hazardous Materials Safety 
Administration's (PHMSA) Emergency Response Guidebook, can be used to 
determine the hazardous zones and decide if civilians should evacuate 
or shelter in place. Many cities, like Oklahoma City, will deploy their 
hazmat teams and mass decontamination units. Patients will be 
decontaminated, triaged, stabilized, and transported to the closest 
appropriate treatment centers. The hazmat team will be deployed to use 
chemical detection technology to ascertain the type of chemical 
released, along with personnel who are trained in the signs and 
symptoms of chemicals. The hazmat team and other hazardous materials 
contractors will be in charge of decontaminating the scene. Local law 
enforcement will play a role in scene security, and begin investigative 
activities once the incident is identified as a terrorist attack. 
During the response, the local Joint Terrorism Task Force (JTTF) and 
other State and Federal authorities will be alerted.
    Since the event is a terrorist attack, it would be important to 
prevent panic in the area near the attack. Emergency responders also 
would have to be vigilant about the threat of secondary devices. An 
important difference between a hazardous materials incident and a 
chemical terrorist attack is the necessity of working with the Federal, 
State, and local law enforcement agencies to preserve evidence and 
maintain scene security for the criminal investigation. To prevent 
widespread panic, Federal, State, and local authorities would have to 
provide accurate information to the public about what happened, what 
emergency steps must be taken, and the overall threat to the 
population.
              preparedness for a chemical terrorist attack
    While the initial response would primarily involve local first 
responders, the Federal Government has a large role to play in any 
successful response to a terrorist attack using chemicals. The most 
important role is in helping local agencies prepare for such an 
incident.
    One major role for the Federal Government is providing important 
threat information to local first responders. Considering the myriad 
potential threats and the budgetary constraints of local governments, 
local first responders need to know for which threats they should 
prepare. If groups promoting violent extremism are publishing training 
materials on the internet or social media, the Federal Government 
should provide information to local governments about what tactics and 
techniques are being taught. In addition, local jurisdictions should be 
informed about specific or credible threats to their areas. The local 
JTTF, State or local intelligence fusion center, and strong working 
relationships with local law enforcement officials should help local 
fire and EMS departments obtain this information. The National 
Counterterrorism Center also hosts the Joint Counterterrorism 
Assessment Team, which brings in local first responders to work with 
intelligence analysts to provide actionable information to local first 
response agencies.
    The Federal Government also plays an important role in helping 
local agencies plan and exercise for a potential terrorist incident 
using chemical agents. During the early hours of the response to such 
an attack, it is important for Federal, State, and local authorities to 
have a well-coordinated incident command system to provide clarity and 
leadership in an inherently confusing situation. The National Incident 
Management System (NIMS) is designed to provide the capability for 
Federal, State, and local partners across all of the fields (fire, EMS, 
law enforcement, emergency management, etc.) to work and operate 
together. Federal, State, and local agencies must adopt NIMS and 
exercise their cooperation before such a terrorist attack. Well-
established pre-existing relationships between Federal, State, and 
local partners was a key to previous successful responses, such as the 
9/11 response at the Pentagon. In addition, fire and EMS personnel will 
have to know how to treat, decontaminate, and transport patients in a 
dynamic crime scene, while law enforcement will have to gather evidence 
in a hot zone or wait until the area is safe to enter. Federal 
initiatives, such as NIMS, and Federally-funded exercises will help 
local emergency response agencies to train and prepare for the threat 
of a terrorist attack.
    Related to this issue, local fire and EMS departments will have to 
plan for a terrorist attack using chemical agents. Many local fire 
departments do not have the hazardous materials response capability, 
including a mass decontamination unit, to respond to a large-scale 
chemical terrorist attack. They will have to pre-plan and develop 
mutual aid agreements with surrounding jurisdictions to bring in 
resources if an incident occurs. In some cases, a fire department in a 
small town may depend on the hazardous materials response capabilities 
of a neighboring metropolitan fire department, like Oklahoma City. In 
other parts of the country, a regional hazmat team covers a corner of a 
State, and can deploy to the scene within an agreed-upon time frame. 
The local incident commanders will have to pre-plan, know when these 
specialized resources should arrive and be able to stabilize the 
situation until help arrives.
    The private sector also plays an important role in ensuring 
preparedness for a potential chemical attack. Chemical facilities, 
rails, and pipelines are natural points for an extremist group to 
attack in order to cause a chemical incident. The railroads and 
pipeline companies should work with local first response agencies to 
ensure that the local fire and EMS chief knows what types of hazardous 
materials are being transported in their jurisdictions. The owners of 
chemical facilities are required to work with Local Emergency Planning 
Committees, so that local jurisdictions know what hazardous materials 
are produced and stored at their facilities. Close cooperation between 
the private sector and local governments will support preparedness for 
a potential chemical terrorist incident.
    The Federal Government also plays an important role in helping 
local fire and EMS departments train for a terrorist incident involving 
chemical agents. The response to a dangerous hazardous materials 
incident requires special training that is both expensive and time-
consuming. For example, the National Fire Protection Association's 2011 
Third Needs Assessment of the U.S. Fire Service found that 
approximately two-thirds of all fire departments that are responsible 
for hazmat response have not formally trained all of their personnel 
involved in hazmat response.
    Many small and volunteer fire departments rely on Federal 
assistance to get the training that they need. Classes provided by the 
National Fire Academy, the Rural Domestic Preparedness Consortium, and 
other courses funded by the U.S. Department of Homeland Security 
provide training on how to respond to a hazardous materials incident 
and lead the response to a major terrorist incident. PHMSA also 
provides training for responding to hazardous materials incidents in 
situations involving rails or other modes of transportation that will 
be critical in responding to a chemical terrorist incident. Finally, 
other organizations, like the IAFC, hold conferences and other 
educational opportunities that allow local first responders to learn in 
person from Federal hazmat experts, like members of the FBI's Hazardous 
Materials Response Unit.
    Finally, it's important to recognize the important role that 
Federal funding plays in helping local fire departments prepare for the 
threat of a chemical terrorist incident. An effective hazmat team 
requires an expensive cache of protective equipment, detection devices, 
and other technology. Programs, such as the Urban Areas Security 
Initiative and the former Metropolitan Medical Response System, provide 
funding for the comprehensive planning and coordination required to 
respond to a major chemical terrorist incident and mass casualty event. 
Across the Nation we have witnessed how Federal funding has provided an 
incentive for Federal, State, and local authorities across disciplines 
to come together and plan for potential acts of terrorism. In addition, 
the Assistance to Firefighters Grant program (including the SAFER grant 
program) can help fire departments obtain the training, equipment, and 
staffing that they need to either develop a regional hazmat team or 
obtain resources for an effective initial response.
                               conclusion
    I thank the committee for the opportunity to testify about the 
response to an act of terrorism involving chemical agents. This is an 
active and realistic threat for which local first responders must be 
prepared. There may be confusion during the initial response about 
whether it is an actual terrorist attack or a hazmat incident, which 
requires that Federal, State, and local authorities plan, train, and 
exercise ahead of time. The Federal Government provides a number of 
critical resources to help State and local agencies, including planning 
resources, training opportunities, and material support through 
funding. As Federal, State, and local governments address tightening 
budget capabilities, we must focus on remaining prepared to protect our 
citizens from this pernicious threat.

    Ms. McSally. Thank you, Chief Bryant.
    The Chairman now recognizes Sheriff Fontoura for 5 minutes.

 STATEMENT OF ARMANDO B. FONTOURA, SHERRIFF, ESSEX COUNTY, NEW 
                             JERSEY

    Sheriff Fontoura. Thank you very much.
    Madam Chairman, distinguished Members, thank you for the 
opportunity.
    A special shout-out, of course, to our newest Member Watson 
Coleman. Thank you very much. Doing a great job. You are going 
to do great things down here. We are very proud of you.
    A special shout-out to my Congressman, Donald Payne, who 
invited me here, and I appreciate very much the opportunity to 
be here.
    For those of you who are not familiar with northern New 
Jersey, please know that Essex County is a core member of the 
Urban Area Security Initiative, commonly known as UASI.
    As reported in the New York Times, Federal counterterrorism 
officials have categorized parts of Essex County and Hudson 
County as the two most dangerous miles in America. Those of us 
charged with protecting the people of the--in our community are 
not in disagreement with that characterization.
    As one of our Nation's most densely populated areas--
Hudson, Union, and Essex--and home to a wide variety of 
potential terrorist targets, including chemical manufacturing 
plants, refineries, propane gas farms, and natural gas storage 
facilities, among other obvious infrastructure targets, 
including the thousands of containers that come into Newark--
Port Newark, the third-busiest port in North America--thousands 
upon thousands.
    We were only about to inspect about 5 or 10 percent of 
those until recently; we are doing much better now. I am told 
by homeland security folks that now we are doing up to about 80 
or 90 percent. We must do them all, because that is a potential 
problem.
    As background, please know that Essex County--we are not 
strangers to terrorism. Back in 1994, Thomas Mosser, a North 
Caldwell executive, was killed by a Unabomber. You may remember 
that--mail.
    The follow-up investigation 2001 attacks upon our country 
documents that 19 of the 21 terrorists traveled through 
northern New Jersey, plotting their assault right in our own 
backyard; and as many as 11 of the terrorists assimilated our 
culture and lived among us. Four spent 4 or 5 days in a hotel 
across from Newark Airport and hijacked one of the planes, as 
you may remember.
    Also, captured documents specifically reveal that Newark's 
Prudential complex has been of particular interest to al-Qaeda 
terrorists. Because of this 2004 threat, law enforcement 
surveillance at Prudential continues.
    You might remember the first attack on the towers in 1993 
were plotted by the so-called Blind Sheik, that lived in Jersey 
City and operated out of Jersey City.
    On February 21, 2015, security at shopping malls in New 
Jersey, as other States, went on high alert following a video 
released by the Somali-based terrorist group al-Shabaab in 
which violence against American citizens was advocated.
    With these many targets simultaneously in play, local, 
regional, and State homeland security personnel, emergency 
preparedness responders, and law enforcement agencies have 
intensified our vigilance, analyzed and investigated every 
potential lead, and shared all intelligence as it relates to 
threats upon us. That was not always done prior to 9/11. Most 
of you remember that.
    But now we are all on the same page. We realize we are the 
same army fighting the same war. So I am happy to report that 
we--the Joint Terrorism Task Force that we participate in in 
the New York area, we are well-informed of what goes on, and 
any potential threat that may come along.
    New Jersey has more than 3,000 plants that either produce, 
store, or utilize toxic chemicals. Essex County is home to many 
of those plants, and Hudson County, as well. A release of 
lethal chemical clouds could threaten a million lives or more 
with a half-hour.
    When we talk about the threats, if you are familiar with 
the Pulaski Skyway--if you have an arm as good as Mariano 
Rivera you could haul a grenade and hit a sweet spot.
    Many of these chemical facilities have been with us since 
New Jersey's industrial heyday, and to many these great white 
tank farms seem a curious welcome to the most densely-populated 
region in the country.
    The short list of these companies would include the General 
Chemical, Universal Chemical, Shamrock Technologies, L&R 
Manufacturing, and Elan Chemical. Other entities would include 
Colonial Pipeline, Sun Oil Pipeline, Amerada Hess and Getty 
Terminals. All are located or adjacent to Port Newark, that I 
mentioned before, the third-largest, busiest port in America.
    These companies produce, store, and transport chlorine, 
sodium hypochlorite, hydrochloric acid, aluminum sulfate, aqua 
ammonia, and many others. Although there have been, to date, 
very few terrorist attacks or plots on chemical facilities, 
this does not mean that threats are merely hypothetical.
    We all remember 1977 in West, Texas--city of West, Texas, 
where it was attacked and a large quantity of hydrogen-sulfide 
into the environment killed 15 people and wounded 200 others. 
In 1999 a bulk propane storage facility in Elk Grove, 
California was targeted by suspects later identified as extreme 
right-wing militia members.
    While both of these plots involved facilities that can be 
classed as--in the nature, there is no reason to think that a 
potential perpetrator would limit himself or herself to this 
particular type of facility. While Essex County has never 
experienced an attack at its chemical facilities and we have 
had accidents and fires, fortunately with few lives lost, but 
many, many injuries.
    We know that exposure to chlorine leaks and other toxic 
chemicals cause severe lung damage, even death. When we unload 
from Port Newark we could sometimes--if you drive by the 
turnpike, you look over to the right and you will see tankers 
on a railroad just waiting to be transported. They are full of 
liquid; sometimes they linger there for 2 or 3 days, overnight. 
Very, very dangerous situation.
    As a result of these incidents and the direct terrorist 
attacks on our Nation, we have bolstered our protocols with 
those private-sector industries that produce, store, and 
transport chemicals. We have also conducted drills and 
exercises in response to chemical releases, chlorine leaks, 
nuclear threats, and other hazmat dangers.
    As to future chemical threats, our boots are on the ground 
in Essex County and north New Jersey. Our law enforcement 
officers, emergency preparedness personnel, and other first 
responders are proactively training, exercising, and watching.
    We thank our Federal partners for their technical expertise 
and financial support to acquire vital protective gear, 
communications, rolling stock, and other counter-terrorism 
hardware. The target-hardening of critical infrastructure where 
toxic chemicals are present remains a top priority.
    From 2004 to present, our Department has acquired just over 
$1 million--out of the $12 million in UASI funding, $1 million 
or so was from the Federal homeland security funding, which has 
been expended on the protection critical infrastructure related 
to the storage, distribution, and refining of chemical and fuel 
substances throughout Essex County, New Jersey. All of this 
funding was utilized for target hardening at these critical 
sites.
    After a series of meetings with our chemical and 
petrochemical industry neighbors it was determined that this 
vital funding would best be spent on high-security fencing and 
gates, controlled access to systems, video surveillance 
systems, security barriers, and motion detection equipment. We 
are doing all we can at the local level. More must be done and 
our Federal Government must lead the way.
    Security monitoring efforts must be stepped up for chemical 
facilities both large and small. It is my understanding that 
the security monitoring of these sensitive facilities is uneven 
at best, and in some cases nonexistent.
    The industry must also fully share in the financial 
investment that our taxpayers have made in securing their 
private-sector infrastructure. We commend Congress for 
extending the Chemical Facility Anti-Terrorism Standard program 
for another 4 years so the Government and chemical companies 
can better improve information sharing and plan for longer 
security.
    It is my further understanding that Department of Homeland 
Security grants exemptions to a number of industries, including 
water and wastewater treatment, which is--use high amounts of 
chlorine. All chemical industry loopholes must be closed.
    Finally, safer alternatives to current toxic chemicals must 
be aggressively deployed. More than 21 million people live in 
our metropolitan area. Locally, the stakes are extremely high.
    We urge you enact increased security measures for chemical 
plants.
    I thank you very much for this opportunity.
    [The prepared statement of Sheriff Fontoura follows:]
               Prepared Statement of Armando B. Fontoura
                             March 19, 2015
    Madame Chairman, Representative Payne, distinguished Members of 
Congress, ladies and gentlemen.
    My name is Armando Fontoura. I am the sheriff of Essex County, New 
Jersey and the coordinator of the Essex County Office of Emergency 
Management.
    I thank you for this opportunity to appear today before you to 
address the topic of ``Responding to the Threat of Chemical 
Terrorism''.
    For those who are unfamiliar with northern New Jersey, please know 
that Essex County is a core member of the Urban Area Security 
Initiative, commonly known as UASI.
    As reported in the New York Times, Federal counter-terrorist 
officials have categorized parts of Essex County, the financial, 
industrial, cultural, and the transportation hub of New Jersey, as 
``America's Two Most Dangerous Miles''.
    Those of us charged with protecting the people of our community and 
our critical infrastructure do not disagree with this ``Most 
Dangerous'' classification.
    As one of our Nation's most densely populated regions, Essex County 
is also home to a wide variety of potential terrorist targets, 
including chemical manufacturing plants, refineries, propane gas farms, 
and natural gas storage facilities, among other obvious infrastructure 
targets.
    As background, please know that Essex County and our northern New 
Jersey neighbors are no strangers to incidents of terrorism and 
terrorist plots.
    On December 10, 1994, Mr. Thomas Mosser of North Caldwell in Essex 
County, was killed when he opened a mail bomb sent by Ted Kaczynski, 
the notorious Unabomber.
    Jersey City was the headquarters for the so-called ``Blind Sheik'', 
Omar Abdul Rahman, and staging ground for the 1993 terrorist attack on 
the World Trade Center.
    The follow-up investigation to the 2001 attacks upon our country 
documents that 19 of the 21 terrorists traveled through northern New 
Jersey, plotting their assault right in our own backyard, and as many 
as 11 of the terrorists assimilated our culture and lived among us.
    Also, captured documents specifically reveal that Newark's 
Prudential complex has been of particular interest to al-Qaeda 
terrorists. Because of this 2004 threat, law enforcement surveillance 
at Prudential continues.
    On February 21, 2015, security at shopping malls in New Jersey, as 
with other States, went on high alert following a video released by the 
Somali-based terrorist group al-Shabab in which violence against 
American citizens was advocated.
    With these many targets simultaneously in play, local, regional, 
and State Homeland Security personnel, emergency preparedness 
responders, and law enforcement agencies have intensified our 
vigilance, analyzed, and investigated every potential lead and shared 
all intelligence as it relates to threats upon us.
    New Jersey has more than 3,000 plants that either produce, store, 
or utilize toxic chemicals. Essex County is home to many of these 
plants and a release of lethal chemical clouds could threaten a million 
lives or more within one-half hour.
    Many of these chemical facilities have been with us since New 
Jersey's industrial heyday and, to many, these great white tank farms 
seem a curious welcome to the most densely populated region in the 
country.
    The short list of these companies would include the General 
Chemical, Universal Chemical, Shamrock Technologies, L & R 
Manufacturing, and Elan Chemical. Other entities would include Colonial 
Pipeline, Sun Oil Pipeline, Amerada Hess and Getty Terminals. All are 
located at or adjacent to Port Newark, the third-largest and -busiest 
port in the United States.
    These companies produce, store, and transport chlorine, sodium 
hypochlorite, hydrochloric acid, aluminum sulfate, aqua ammonia, 
fluorocarbons, petro-chemicals, and other toxic chemicals in 
significant quantities.
    Although there have, to date, been few terrorist attacks or plots 
on chemical facilities, this does not mean that threats are merely 
hypothetical.
    In 1997, an explosive device was detonated at a natural-gas 
processing facility in the town of West, Texas which released large 
quantities of hydrogen-sulfide gas into the environment.
    The explosion killed 15 persons and wounded an additional 200 
individuals.
    In 1999, a bulk propane storage facility in Elk Grove, California, 
was targeted by suspects later identified as extreme right-wing militia 
members.
    While both of these plots involved facilities that can be classed 
as petrochemical in nature, there is no reason to think that a 
potential perpetrator would limit itself to this particular type of 
facility.
    While Essex County has never experienced an attack on its chemical 
facilities we have had accidents and fires. Fortunately, the number of 
casualties was few although the injuries were severe.
    We know that exposure to chlorine leaks and other toxic chemicals 
cause severe lung damage, even death.
    As a result of these incidents and the direct terrorist attacks on 
our Nation, we have bolstered our protocols with those private-sector 
industries that produce, store, and transport chemicals.
    We have also conducted drills and exercises in response to chemical 
releases, chlorine leaks, nuclear threats, and other HAZMAT dangers.
    As to future chemical threats, our boots are on the ground in Essex 
County. Our law enforcement officers, emergency preparedness personnel, 
and other First Responders are proactively training, exercising, and 
watching.
    We thank our Federal partners for their technical expertise and 
past financial support to acquire vital protective gear, 
communications, rolling stock, and other counter-terrorism hardware.
    The target-hardening of critical infrastructure where toxic 
chemicals are present remains a top priority.
    From 2004 to the present, my department has acquired just over $1 
million in Federal Homeland Security funding which has been expended on 
the protection of critical infrastructure related to the storage, 
distribution, and refining of chemical and fuel substances throughout 
Essex County, New Jersey.
    All of this funding was utilized for target hardening at these 
critical sites. After a series on meetings with our chemical and 
petrochemical industry neighbors it was determined that this vital 
funding would best be spent on high security fencing and gates, 
controlled access systems, video surveillance systems, security 
barriers, and motion detection equipment.
    We are doing all we can at the local level. More must be done and 
our Federal Government must lead the way.
    Security monitoring efforts must be stepped up for chemical 
facilities both large and small. It is my understanding that the 
security monitoring of these sensitive facilities is uneven at best and 
in some cases non-existent.
    The industry must also fully share in the financial investment our 
taxpayers have made in securing their private-sector infrastructure.
    We commend Congress for extending the Chemical Facility Anti-
Terrorism Standards program for another 4 years so the Government and 
chemical companies can better improve information sharing and plan for 
longer-range security.
    It is my further understanding that Department of Homeland Security 
grants exemptions to a number of industries, including water and 
wastewater treatment, which use high amounts of chlorine. All chemical 
industry loopholes must be closed.
    Finally, safer alternatives to current toxic chemicals must be 
aggressively developed.
    More than 21 million people live in our metropolitan area. Locally, 
the stakes are extremely high. We urge you enact increased security 
measures for chemical plants.
    I thank you for this opportunity to appear before you today.

    Ms. McSally. Thank you, Sheriff Fontoura.
    Sheriff Fontoura. Or any questions you may have.
    Ms. McSally. Thank you.
    I now recognize myself for 5 minutes for questions.
    I appreciate the testimony from all of you. It raises a 
whole lot of questions and we will have to adjourn shortly, but 
I think we will be able to get some questions in first.
    Dr. Kirk, I want to start with you. In your experience and 
in your position, and all the things that were mentioned here 
today, do you think that the United States is vulnerable to a 
chemical attack? I mean, how vulnerable are we?
    In the military we think about a threat equals intent-plus-
capability, right? So how vulnerable are we?
    Do you think that we are able to respond, given all the 
comments that were here today and all the challenges that there 
are? What keeps you up at night?
    Dr. Kirk. Thank you for your question.
    I can start by talking about vulnerability. I think the 
best way to address that is to reflect on what our program is 
doing as we realize the every community is different.
    The way we are trying to approach this is to look at risk. 
The way we look at risk is we take threat, we take 
vulnerability, and we look at consequences. We are trying to 
come up with what are the greatest likelihood, the greatest 
consequence events that could occur.
    Then that is what drives a lot of preparedness activities 
beyond that. It helps with purchasing of detector capabilities; 
it helps with training focus; it helps with the kind of 
personnel needed. I think that is a way to get our arms around 
the many different threats and risks that we have that are 
currently there.
    But every community, depending on industry, railroad, truck 
traffic, and then the vulnerable facilities that are in that 
community, all make it a different answer for different 
communities.
    What we did in Baltimore and what we are doing in the other 
communities is trying to come up with a good way for the 
communities to do this for themselves to some extent, and then 
to interact with the Federal Government with current emerging 
threats that are coming along so that they can incorporate 
those into their preparedness plans.
    Ms. McSally. Great. Thank you, Dr. Kirk.
    Dr. Catlett, you talked about the declining capabilities of 
our medical community to--or, you know, just the atrophying of 
those skills. I can say, as I mentioned, in the military, I 
mean, if we don't exercise those skills--because it is very 
complicated and not intuitive, as you said, to be able to make 
sure you are able to detect and then decontaminate and all 
that. If you are not training to do that all the time, you are 
not going to be able to do it well.
    So what do we need to do to turn that around, and how much 
of that is really the Federal Government's role, and how much 
of it is at the State level or just within communities, and the 
medical community themselves, to know that this is part of 
their responsibility? Like, what is that mix, and what do we 
need to do to turn that trend around?
    Dr. Catlett. Very good question. I happen to think that 
training and education is one of the most important strategies 
that we can address in the health care system.
    Part of our limitation is time. Time and money. Education 
is both of those for us.
    We have extremely tight curricula at baseline, so it is 
very difficult to introduce new topics. In addition, for more 
seasoned health care providers we have very limited funds to 
attend continuing medical education programs or continuing 
nursing education programs.
    So in my opinion, any new education initiative that we 
undertake specifically to address chemical training is going to 
have to be time-efficient and it is going to have to be cost-
effective.
    In my submitted written testimony I happened to mention one 
model, which is the CDC's on-line training. We have put so much 
effort into Ebola preparedness, and doing on-line training 
modules as an adjunct to those hands-on training with the 
actual supplies and equipment is an example of a cost-
effective, time-efficient way to train people.
    Ultimately, if we don't address this training and education 
issue, I think we will continue to struggle in our preparedness 
level.
    Ms. McSally. Thank you.
    Chief Bryant and Sheriff Fontoura, representing the first 
responders--Sheriff, I know you mentioned you were talking very 
specifically about your area, but, you know, my concern is if 
you are a bad guy you probably don't want to go to an area that 
has learned a lot from previous attacks and are working very 
closely together; you maybe want to find another more 
vulnerable area that hasn't had the resources, that is a softer 
attack area.
    I mean, as you are looking Nation-wide, I mean, where do 
you think we have our challenges? Are they large cities that 
are not equipped to address these issues and haven't been 
inculcating the culture of being able to deal with a chemical 
attack, or is it a small town that just really this isn't on 
their radar at all?
    I mean, where do you think the threats are Nationally and 
the vulnerabilities? Then what can we do to share best 
practices from the cities that are doing it great?
    Chief Bryant. Well, in terms of the fire service, you know, 
we look at threat based on the resources available. So, ma'am, 
I think it is both, to be very honest with you.
    You know, obviously in some of your major metropolitan 
areas of the city or where you have the facilities, the plants, 
the manufacturing facilities that--where these--there are mass 
quantities of these chemicals, so there is certainly a 
vulnerability there. But also, obviously, in Oklahoma, you 
know, we are large in the oil and gas industry and we have 
refineries that are in more rural areas. So it runs the gamut.
    I would say that, you know, most of the grant money that is 
dispersed from the Federal Government in terms of hazardous 
material response, you have to show what your level of threat 
is to your community. So therefore, some of the resources in 
those areas where there may not be a large quantity of chemical 
facilities or plants may not have the resources, in terms of 
equipment and training, necessary to handle a full-scale 
hazardous material incident or chemical attack, and some of the 
areas where there is more vulnerability, that is where you are 
going to see your assets pooled and concentrated in those 
areas.
    Ms. McSally. Okay. Great.
    My time is expired, Sheriff Fontoura, if you have a quick 
add-on to that?
    Sheriff Fontoura. Are we on?
    We are as vulnerable in Oklahoma as we are in New York City 
or New Jersey. I think that the philosophy of terrorists--most 
terrorists is that, ``Get as many people as you can.''
    So if--the densely-populated areas are their first choice, 
obviously. This is the intelligence that we have gathered and 
continue to gather.
    But that doesn't mean that rural areas are excluded, 
because they are not. I think that we need to look at it as, 
again, an equal opportunity for--everyone is the same 
vulnerable no matter where you are, you know. If they want to 
go after an awful lot of people, then obviously northern New 
Jersey, New York City, that is where you go. That is where you 
attack, you know.
    UASI funds, by the way, I talked about it before, they are 
just about drying up. So we need to start looking at that 
because we, you know, the Federal Government has to step up 
again and start doing the right thing.
    Ms. McSally. Great. Thank you.
    I think we have time for Mrs. Watson Coleman.
    Chairman now recognizes Mrs. Watson Coleman for 5 minutes, 
and then we will have to adjourn for votes.
    Mrs. Watson Coleman. I am going to just kind-of start my 
questioning because I do have a number of questions, I think, 
this moment.
    I think that the problems with an accidental situation just 
as terrible as an intentional situation. So I notice that Dr. 
Kirk, that your budget requests have gone down over the years 
and I am just wondering what is the reason for that? In your 
CDP program.
    Dr. Kirk. Over the years we have focused on different parts 
of chemical defense. Originally we had an operational 
capability with detectors, and we have moved into an area where 
we are looking more at preparedness and planning efforts. In 
that we have been able, with our budget, to hire expertise, a 
staff that has focused expertise.
    What we do with our staff is that we provide subject-matter 
expertise across all of DHS and the interagency. We provide 
something unique--it is medical toxicology and some technical 
expertise. So with that budget we have been able to do that.
    In addition, in fiscal year 2012 and fiscal year 2013 the 
appropriations allowed us to provide four additional cities to 
look at after the Baltimore project to further define what we 
have been doing in Baltimore.
    Mrs. Watson Coleman. Well, how do you determine what cities 
need to have these demonstration projects? What is the criteria 
for it?
    Dr. Kirk. Well, when we were asked to extend to four new 
cities we were also asked to select the cities based on a 
competitive and fair selection. So we sent out an expression of 
interest through the Federal Register and asked for 
applications. Interestingly, we had 30 cities that applied for 
that, so there was quite an interest in it.
    After we received the applications we first of all looked 
at risk. We had our Science and Technology Chemical Security 
Analysis Center do a risk assessment of the type of venue that 
was selected for the project and the city itself, and so that 
constituted most of the selection.
    But in addition, we looked at the city's interest and their 
concerns that they had about chemicals. We had a panel that 
actually selected this, and then we offered it.
    As part of our program we have already looked at a subway 
station transit, so we were looking at other types of 
facilities.
    Mrs. Watson Coleman. So it seems to me that the issues of 
preparedness, protocols, education, exercises, training, 
cooperation, coordination, and predictability just seem to flow 
from to your left on.
    So from the hospital's perspective I am very concerned that 
there are antidotes, and protocols, and tools, and other things 
that have just kind-of been sitting on the shelf and are no 
longer going to be helpful, and that there are doctors who are 
not being trained should there be such a major incident. Do you 
find that it is an issue of financial resources coming--funding 
resources coming from the Federal Government that is impeding 
your ability to make sure that the hospital is--hospitals are 
where they need to be?
    The same thing with our first responders. Are we missing 
resources, funding that you need in order to ensure that you 
have the coordination that you need, that you have the 
information that you need, that you have the kind of 
interaction between the private sector, the public sector, and 
what is the role of the Federal Government in that?
    I am not sure we can get through all of that within a 
minute and 20 seconds, but those are the questions that I 
really need to have answered here.
    I guess I will start with you, Dr. Catlett.
    Dr. Catlett. Yes, ma'am.
    Sheriff Fontoura. Our hazardous mitigation plan----
    Mrs. Watson Coleman. Pardon?
    Sheriff Fontoura. Our hazardous mitigation plan will--
addresses most of those things. We have hospital--are a part of 
our plan, our emergency management plan, and we have those 
protocols in place already from our perspective.
    Is it enough? Do we have enough rolling stock? We did okay 
with the $12 million that we had, but again, some of the stuff 
is starting to get aged and we need to replace that, but we do 
have protocols in place where we are working with hospitals on 
a regular basis and--as well as, you know, other areas, 
schools, et cetera.
    Dr. Catlett. I think for us the issue is two things: (A) I 
think we are--we have lost awareness of the threat. That is one 
problem.
    Then the second is, yes, funding. I gave you some 
statistics. In 2004 Johns Hopkins received almost $350,000 in 
funding from HPP; in 2014 we received $35,000, and we re-
donated back to the system half of that.
    So we don't have the financial resources that are necessary 
to replace these degrading supplies and equipment and add 
additional training programs for us.
    Mrs. Watson Coleman. That is concerning, because you might 
not be the first responder but you certainly are the very next 
contact point in an emergency.
    Dr. Catlett. We are called first receivers, yes, ma'am.
    Mrs. Watson Coleman. First receivers. Thank you.
    Dr. Catlett. Yes, ma'am.
    Chief Bryant. Generally speaking--I am sorry. Did you--
generally speaking, yes, the Federal Government has been doing 
their part in a large way to support the local first responders 
in terms of training and grant programs to fund equipment and 
resources necessary to respond. Again, our concern would be on-
going and maintaining that level of preparedness.
    Mrs. Watson Coleman. When we come back I really would like 
to discuss the real possible or probable threat that we are 
experiencing or think we are experiencing. Thank you very much.
    Thank you.
    Ms. McSally. Great.
    Mrs. Watson Coleman. I yield back.
    Ms. McSally. Thank you.
    Without objection, the subcommittee is in recess subject to 
the call of the Chairman. We expect to return in about 10 
minutes. We have two votes. We are going to catch the first one 
and then we will be back, so thank you.
    [Recess.]
    Ms. McSally. All right. The subcommittee will now 
reconvene. Thank you for your patience.
    We do have some other Members that may come back in and ask 
questions, but until they do, I know we have some additional 
questions. So I think we will go to a second round for us, if 
that is okay with you, and then if they come in we will be able 
to have them jump in.
    So again, thanks for your time. There are obviously so many 
elements of the issue that we are doing with today, so I 
appreciate all your perspectives.
    I am interested in the feedback from the Baltimore pilot 
and--from Dr. Kirk and Dr. Catlett. So if each of you could 
give your perspectives on what you learned there and what else 
we need to do to implement some of the lessons learned?
    In the military we call them ``lessons identified'' until 
they are actually learned, and then they become ``lessons 
learned.''
    Dr. Kirk.
    Dr. Kirk. I think this project, at least from my 
perspective, was very successful. The ways it was successful 
are several.
    First of all, the relationship that were built there, and I 
think that is part of the success of a preparedness is the 
relationship-building. Our program looked at not just law 
enforcement, fire hospitals; we were really looking at the 
connections amongst all of those. We were looking at a 
community response in total.
    So that was probably the most important part of it. It was 
also the relationships between the Federal Government and the 
community and the Maryland Transit Administration. These were 
all important relationships for this to work well. I think we 
left something there when we helped build those relationships.
    The key things that we learned, though, is, first of all, 
this is a complex system, and within that complex system there 
is certain leverage points. There are places where if we really 
focus on those we can make a big difference, versus trying to 
fix everything.
    So we found some of those, and there are really three that 
I think are the most important. The first one was recognizing 
the problem. It is not just about detector technology; it is 
about all of the different things that we can pull out of our 
toolkit and say what is this, and how quickly can we identify 
it, and how quickly we pass that information to everyone that 
is responsible for response.
    The second thing was information flow, but the information 
flow is focused on how people make good decisions, so really 
getting into the brains of the responders at every level of how 
they make decisions in this chaotic and this uncertain 
environment, and delivering the best information right away so 
they make very good decisions.
    The third was just aligning resources--what resources they 
currently have in the community that they can really leverage, 
and if they are not aware, what resources are right outside of 
their community that they could pull into it.
    So those are the things that we are highlighting in the new 
projects that we are--as we move forward.
    Ms. McSally. Dr. Catlett.
    Dr. Catlett. Thank you. We were very excited to be included 
and chosen for this project. I think we learned three things 
quickly.
    The first was our vulnerability. We sit directly on top of 
a metro station, very similar to George Washington University 
here in Washington, DC. You know, it opens up directly into the 
hospital.
    That is a critical infrastructure that you do not want to 
contaminate and take off-line. So that was one: Realizing our 
vulnerability.
    The second one is the complexity of the concept of 
operations if one of those alarm goes off. It triggers a 
cascade of events that is very dramatic and will disrupt our 
services at the hospital, so we wanted to make sure that we got 
it right, which led to our third thing that we learned, which 
was the importance of collaboration.
    We can't operate in a vacuum. We are nothing without our 
first response partners--police, fire, EMS, the hazmat teams. 
It really gave us the opportunity to sit down in the same room, 
have those hard conversations, and, you know, we always say 
game day is not the time to be exchanging business cards. So we 
have that lead time now to make those connections and to 
develop that concept of operations.
    Ms. McSally. Great. Thank you.
    I want to move on to--Dr. Kirk, you mentioned that 
detection is, you know, one of the big challenges, obviously.
    To Chief Bryant and Sheriff Fontoura, you are going to be 
the first on scene for one of these incidents and, you know, 
how do you know the difference between something that is an 
accident or something that is, you know, just a--in the chaos 
of a catastrophic event, being able to detect that we've got a 
chemical attack or some sort of chemical agent, whether it was 
an accident or an attack, and how you protect your individuals 
right away and communicate that?
    Like, can we walk through what our detection capabilities 
are right now for our first responders, what those gaps are, 
and how we then get that information out?
    Chief Bryant and then Sheriff Fontoura.
    Chief Bryant. Yes, ma'am. As I mentioned in my testimony, 
the fire service's response to a chemical incident is going to 
be very similar, whether it is an act of terrorism or an 
accident.
    So again, depending on the level of training of those first 
responders, they are going to respond to it in maybe more of a 
defensive posture if their level of training hasn't got them to 
the point that they can take a more direct response to it. So 
in terms of protective clothing, in terms of detection devices, 
again, that is--depending on the municipality and their--their 
vulnerability, again, they may go from a very basic level of 
training, very basic resources and equipment, to a full built-
up hazardous material team.
    Kind-of in the gaps and between that, especially post-9/11, 
a lot of the grant funding has gone to regional hazmat teams. 
So in Oklahoma, for instance, there are about five or so of 
those scattered throughout the State, so maybe to protect those 
rural areas.
    But again, our initial response to that is going to be to 
isolate that incident to a small as area as possible. To not 
let that agent go any further than that, obviously you need--
people that are affected are going to have to be treated there 
on the scene, isolated there on the scene. A lot of times the 
medical response has to come to us because we can't--we are not 
going to risk further contamination to other people by sending 
those people to a health facility until we know that they are 
decontaminated to some acceptable level.
    But again, that is our first approach to that is to isolate 
that incident to as small as area as possible.
    Ms. McSally. Thank you.
    So, Sheriff Fontoura, that assumes--Chief, you are right, 
that assumes you have detected it, right? So, you know, what 
are you doing to actually detect it in the--again, in the chaos 
of what is going on that, ``Hey, this is a chemical 
situation,'' and then be able to protect?
    I know I'm past my time, but if you could just give your 
perspective, Sheriff Fontoura.
    Sheriff Fontoura [continuing]. Keep forgetting.
    Our first responders, and our department in particular, 
they are all equipped with Tyvek suits and all the protective 
equipment that we have. Our bomb squad personnel have been 
cross-trained and they have special equipment they could put on 
for--they can breathe--whatever it may be.
    But again, what the chief talked about--you isolate, you 
find--get as much information as you can, get as much 
information out to the public as you can, and if it is some 
kind of a chemical spill you got to be careful that the--
those--if it is an accident or those responsible are not the 
ones giving out the information, that you take control of that.
    Today, with the social media available to--there are so 
many ways to let the public know. Reverse 9-1-1, of course, is 
the first one that we go to, but there are so many other ways. 
If you have to, with loudspeakers, go to, ``Stay out of the 
neighborhood.''
    Evacuate as quickly as you possibly can. Isolate the area 
as much as you can--totally, if you can.
    We have secured a mobile field hospital, for example. We 
have four hazmat units within our county. State police is--also 
has a hazmat unit available to us, Union County. We can get as 
many as six hazmat units ready to go and work with the 
hospitals and make sure that we isolate, isolate, and control, 
and make sure that we keep the public as safe as we possibly 
can.
    Ms. McSally. Great. Thank you.
    The Chairman now recognizes Mrs. Watson Coleman for a 
second round for 5 minutes.
    Mrs. Watson Coleman. Thank you, Chairman.
    I am interested in knowing--I know that corporations that 
store chemicals have a--have the legal responsibility to report 
the kind of chemicals that they have in their facilities. So 
that information is transmitted to fire and police? Is that 
information transmitted----
    Chief Bryant. Yes, ma'am. Most communities have--or areas 
have what is referred to as a local emergency planning 
committee, LEPC, and they are that group. Again, it is kind of 
a multi-discipline group that comes together, and that is how 
we--through that committee is generally how those--what is out 
there in our community is communicated to us, and then that 
stays updated on a regular basis.
    Mrs. Watson Coleman. That is my other question. How often 
does the company have to report what is within their facility?
    Chief Bryant. I couldn't tell you how regularly, but 
generally they initially report that, that information is 
collected, disseminated to the people that need to know that. 
Any type of change in quantity or a type of chemical or 
whatever, that is also reported immediately to that group, and 
that information, again, is collected and stored.
    Mrs. Watson Coleman. So the right-to-know law identifies 
the kind of chemicals and things that are to be identified and 
shared.
    Dr. Kirk, would you know the answer to that? That is where 
that is contained, right, within that law?
    Dr. Kirk. Well, the Environmental Protection Agency and 
their risk management plans are where that comes from. I don't 
have detailed information about that. I am not certain the 
specific requirements.
    Mrs. Watson Coleman. Dr. Catlett, would you know whether or 
not that list has been updated or need to be updated?
    Dr. Catlett. No, ma'am. I would not have access the 
information, and I am not sure that hospitals seek that type of 
information. I am not saying it is not important; I don't think 
we know to seek that sort of information.
    Mrs. Watson Coleman. Well, I know that would be important 
information for first responders. I mean, I know that you need 
to know what is in your communities. I know we need to figure 
out, what does it take, therefore, to make--to protect the 
people within that community, be it an accident or a terrorist 
attack?
    I am just wondering if the information is flowing in a 
matter that it is usable and timely. Or do we not know because 
we just haven't had an accident or an incident in such a long 
period of time that we ought to just be looking towards the 
what-ifs of the future?
    Sheriff Fontoura. Our hazardous mitigation plan, our 
emergency management plan, which has to be--every year we have 
to upgrade it and send it to the--forward it to the State. It 
lists all of the companies that I talked about and then some, 
and what they are dealing with. We stay in constant touch with 
them.
    If it becomes necessary, anybody can access that. The only 
thing you cannot access for emergency management or hazardous 
is the actual response that we may have, because you--some 
things you need to keep from the wrong people to get ahold of.
    So we don't list everything. We may not risk the entire 
response, but you certainly know what is in there in those 
companies and what they are making.
    Mrs. Watson Coleman. So Newark in particular--well, Essex 
County in particular--I mean, you've got the rail, you've got 
the ports, and you've got the highways. Is there any mechanism 
that lets you know what is being transported that could be a 
potential dangerous--a danger to the communities?
    Sheriff Fontoura. We have a pretty good idea, but the 
answer to that is--absolutely totally? No. We don't always know 
what is in those tankers of--that are coming through there or 
those tanks that I talked about on the railroad just waiting. 
You know, we think we know what is in there, but I am sure 
there is always one or two that we are not entirely aware or 
what time they are going to be moving through.
    Mrs. Watson Coleman. In Bridgeton most recently, last year, 
there was a freight train with stuff in it that was bad, kind 
of overturned and got into the water, got into the air. They 
are still actually trying to recover from that. Luckily nobody 
died from it, but people could have.
    So do we have specific identification of sort-of the 
various communities that live within certain distances of 
facilities that store these potentially dangerous and available 
chemicals?
    Sheriff Fontoura. In our county we do. We are pretty much 
on top of everything that is being manufactured and everything 
that is being stored, because if the companies don't cooperate 
with us then they have a serious problem, obviously.
    Mrs. Watson Coleman. Essex County seems to be particularly 
prepared. To what extent are you using Essex County resources, 
versus getting assistance from the Federal Government, in 
ensuring that you all are ready, willing, and able to serve and 
protect?
    Sheriff Fontoura. I think it is incumbent upon us and we 
don't rely too heavily on the Federal Government to advise us 
or rely on them to----
    Mrs. Watson Coleman. What about funding?
    Sheriff Fontoura. For training?
    Mrs. Watson Coleman. For the whole megillah.
    Sheriff Fontoura. Yes. Yes.
    Mrs. Watson Coleman. For the whole megillah, for the 
whole--you know, your--establishing your protocols, having 
your--having your tools, having your resources, having your 
communications system, having your readiness and preparedness 
to do that.
    Essex seems to be so prepared. To what extent are you 
relying upon the budget coming from the county taxpayers or the 
State taxpayers, or what--to what extent are we relying upon 
the Federal----
    Sheriff Fontoura. Very heavily.
    Mrs. Watson Coleman [continuing]. To support you?
    Sheriff Fontoura. All of our rolling stock that I talked 
about before--and I have a whole list of it that I will leave 
for you before I leave--but all of that was purchased through 
UASI funding, the $12 million that I talked about. We have very 
state-of-the-art equipment. We are starting to get--couple of 
items are getting a little old, and right now the--has dried 
up.
    But we have done very well in that area, so I have no 
complaints. I mean, I was born and raised in the Ironbound 
section of Newark. We have more than our fair share of--I used 
to swim in the Passaic River when I was a kid. You know----
    Mrs. Watson Coleman. Not now.
    Sheriff Fontoura [continuing]. Now I can walk across it.
    Mrs. Watson Coleman. Thank you.
    Sheriff Fontoura. So we know all about those plants that 
are there and what they are capable of producing for us.
    Mrs. Watson Coleman. Always known you to be attractive. I 
don't want to see you glowing in the dark, though.
    Thank you, Chairman.
    Ms. McSally. Thank you.
    The Chairman now recognizes my colleague, Mr. Palazzo, from 
Mississippi.
    Mr. Palazzo. Thank you, Chairman McSally, for holding this 
important hearing.
    I thank our witnesses for coming here today to share their 
expertise on chemical terrorism.
    Dr. Kirk, I have a question for you.
    Of course, others can pipe in after he is finished.
    What technologies are available now to remove or neutralize 
chemical warfare agents?
    Dr. Kirk. Well, a lot of different groups within the 
Federal Government and even academics are working on those 
kinds of things. There are emerging technologies I am aware of.
    My program doesn't specifically work in that area. What we 
are trying to do is connect some of those available resources 
to the communities.
    Some of the most specific things that I have worked on, 
and--in the patients that are contaminated, one of the very 
first things to neutralize or remove is patient 
decontamination. This is a guidance--a National guidance that 
was developed through both HHS, ASPR, and our office.
    That really looks at how do we remove the chemicals from a 
person so that they can first of all not have additional harm, 
which is one problem--it is a first aid procedure to get the 
chemicals off quickly. Then second, how do we prevent that from 
being spread into the hospitals and downstream?
    Mr. Palazzo. Can I ask you what countermeasures have been 
stockpiled to react to a chemical attack?
    Dr. Kirk. Those are usually local in most regards of the--
and back to our risk assessment work we are doing in each 
community, I think that risk assessment really informs what 
countermeasures should be most available in that particular 
community.
    I am also aware--I work with my colleagues at HHS, CDC, who 
have the CHEMPACK project, which stores auto-injectors and 
other types of pharmaceuticals for chemical attacks.
    Mr. Palazzo. Okay.
    Our National Guard troops often provide military support to 
civil authorities at high-visibility and high-exposure public 
events. What chemical protective equipment do they carry to 
shield against chemical exposure or provide for immediate skin 
decontamination if exposure occurs?
    Dr. Kirk and anybody else on the panel that is familiar 
with the National Guard's role, feel free to weigh in.
    Dr. Kirk. I do advise them. I don't have the depth of 
understanding of that, that they carry a lot of the Department 
of Defense chemical protective equipment and skin 
decontamination countermeasures, as well as antidotes that I 
have mentioned already.
    Mr. Palazzo. So it would probably be best to talk to the 
NGB?
    Chief Bryant. Well, just from my own experience, sir, in 
Oklahoma we have the 63rd Civil Support Team, and that is their 
focus. They are very well-equipped, they are very well-trained, 
and they have a lot of resources in terms of protective 
clothing, decontamination equipment, detection equipment.
    So, again, the issue with that is is that they are there, 
again, because they are a National Guard unit there is a little 
bit of time involved to notify them and get them on the scene. 
So initially, you know, it is that local jurisdiction.
    But again, it is very good to have those assets close by 
because, again, they are very well-equipped and trained.
    Mr. Palazzo. My final question is for Dr. Kirk or Dr. 
Catlett. What gaps remain in our preparedness for the health 
effects of a chemical attack?
    Dr. Kirk. Well, as I mentioned earlier, there are so many 
different chemicals that are available, and many of them have 
toxic effects, and there are so many different scenarios, as 
well, that that question is somewhat challenging to answer 
unless you know, you know, which community you are dealing with 
and what is most likely.
    We do have a specialist in each community, both the 
regional poison centers and medical toxicologists. The 
specialty that I am a part of is a fairly young specialty, but 
it is people that have actual clinical experience in dealing 
with that.
    I think one of the gaps may be that most communities aren't 
as aware of those resources that already exist that they could 
engage more fully in this, and that has been part of what I 
have tried to do is bring those--that kind of expertise to the 
forefront. That is one of the differences in that chemical 
incident versus some of the others is that we have this area of 
expertise that has been working in this area all day long every 
day that would like to be engaged in these activities.
    Dr. Catlett. I think you hit the nail on the head with your 
question: What are the gaps in health care response to these 
agents? I don't know that we have the answer to that right now.
    There was the GAO report that was published I believe in 
2004 that looked at hospital preparedness for--in general, to 
other acts of terrorism as well--but there hasn't been good, 
well-organized data published in almost a decade.
    So I think that it is worthwhile to invest in a new 
research project or a poll to find out what the level of 
preparedness now, but more importantly, research to define the 
metrics. We don't know what the metrics are for success right 
now. It is one thing to have the data on our level, but we need 
to breach that gap and cross that gap to provide those 
countermeasures and give us the capability to respond.
    Mr. Palazzo. Is it fair to say that we can't--you know, it 
is almost impossible to mitigate against every threat that is 
possibly out there?
    Dr. Catlett. I think that is a fair statement. We are 
always reacting to emerging threats. Particularly for us it is 
emerging infectious diseases. You know, we went SARS to swine 
flu to bird flu to MERS to Ebola, you know, and we are always--
it always seems we are one step behind anticipating that next 
threat.
    Mr. Palazzo. All right.
    My time is expired. Thank you, Chairman McSally.
    Thank you.
    Ms. McSally. Just a couple of quick wrap-up questions 
focused on detection.
    First one: My understanding, Dr. Kirk, is DHS used to 
support a rapidly-deployable chemical detection system, and 
this was a detect-to-warn capability deployed to high-profile 
events, kind-of like BioWatch. But my understanding is it is no 
longer being funded.
    So why has it been eliminated, and is something replacing 
it for high-profile event detection?
    Dr. Kirk. Well, the reason that that is no longer being 
deployed is early on when I joined DHS I was part of the team 
that deployed with that, and one of the problems we had was 
that the communities wanted to know what to do with the 
information. In the discussions I had when we would go to these 
events with this was that they wanted other ways of 
recognition, they wanted decision making with what that 
information meant to the--what did that information mean to 
them, and then how to take actions.
    So it really is the nidus of the program we now have was 
because the communities were asking for the kind of 
information, rather than detection capabilities.
    Along the way, detection capabilities have improved. They 
are more accessible. Other grants programs have provided 
detection capabilities. Ours were--had been around for a bit, 
and we felt like we were not adding as much to what the 
communities already had and there was a better place to be, a 
leverage point where we could actually improve the response 
beyond that.
    Ms. McSally. Great. Thank you.
    Just one final question for anyone on the panel--you've got 
to go, Sheriff? You've got law and order to keep in Essex 
County? Thank you, sir. Thanks for your time--which is, related 
to the threat--so there was discussion so far in your testimony 
about shipping containers coming in not being inspected, and 
chemical facilities that there would be a concern of somebody 
trying to have an attack on them. I also would think that just, 
you know, chlorine gas with an IED associated with it, you 
know, potentially could be a threat.
    Like, what do you think is the biggest threat, as we are 
seeing the prevalence of ISIS-inspired extremists that 
potentially are either in our country, or flowing in our 
country, or is it coming over the border? Like, what do you 
think is the most significant threat of all the ones that were 
mentioned today?
    If anybody just wants to jump in and then we can wrap up.
    Chief Bryant. It probably may have been a bigger--or a 
better question for the sheriff who just left us, but----
    Ms. McSally. He left at the perfect----
    Chief Bryant. You know, there are just so many out there. 
They are just so numerous.
    Again, you mentioned chlorine again, and earlier that I 
mentioned, you know petrochemical plants. So again, I think it 
is just--it is opportunity and what somebody would think to try 
and weaponize.
    But again, as far as biggest threats, I think you have to 
think in terms of what could affect a large part of the 
population quickly. So when you are thinking in terms of 
compressed gases, like chlorine and so forth, that if you 
release those in some way that they can get out they expand 
very rapidly with winds, and so forth, can cover a large area 
fairly quickly. Liquid type of chemicals--you would probably 
have to introduce them into the water system or something to 
have an impact in that way.
    So I think that is what we have to think in terms of, as 
far as what the bigger threats are, is what would affect a 
large part of the population in a--very quickly.
    Ms. McSally. Okay. Great. Thank you.
    Mrs. Watson Coleman, do you have any more questions?
    Mrs. Watson Coleman. No. I just want to thank our panelists 
for sharing this information for us and putting something 
before us and on the table that perhaps we have not been giving 
the kind of attention to.
    Thank you.
    Thank you, Chairman.
    Ms. McSally. Thank you.
    I do want to thank all the witnesses. Thanks for your work 
in this area. Thanks for your testimony today, and look forward 
to continuing working together with you to try and address 
these issues.
    The Members of the subcommittee may have some additional 
questions for you. We will be asking you to respond in writing 
potentially. Pursuant to committee rule 7(e), the hearing 
record will be open for 10 days for that purpose.
    So without objection, the subcommittee now stands 
adjourned.
    [Whereupon, at 11:19 a.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
